                                               




                                                            

                 Pension Benefit
                         B       Guarant
                                 G     ty Corpporationn
                         Officce of Inspectorr Generral

                                Final Audit
                                      A     Reeport
___________
          ___________
                    ____________
                               ___________
                                         _____________________________________________________



      PBGC
         C’s Inceentives and
                         a Com mpensattion Flexxibilitiess Prograam
           To Reecruit annd Reta
                               ain a Qu
                                      ualified W
                                               Workforce
                  Was Administ
                       A       tered Inconsisteently




___________
          ___________
                    ____________
                               ___________
                                         _____________________________________________________



                            Sep
                              ptembeer 30, 22014
                                                                        AUD
                                                                          D- 2014-10/P
                                                                                     PA-12-86
                                              i 
   
                       Pension Benefit Guaranty Corporation
                                                       Office of Inspector General
                                       1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                        September 30, 2014

To:            Alice Maroni
               Acting Director

               Arrie Etheridge
               Director Human Resources Department

From:          Rashmi Bartlett
               Assistant Inspector General for Audit

Subject:       PBGC’s Incentives and Compensation Flexibilities Program To Recruit
               and Retain a Qualified Workforce Was Administered Inconsistently (Aud-
               2014-10/PA-12-86)

I am pleased to transmit the final report PBGC’s Incentives and Compensation Flexibilities
Program To Recruit and Retain a Qualified Workforce Was Administered Inconsistently.
OIG has worked diligently with PBGC to ensure the attached report gives appropriate
credit to PBGC for its current efforts and accurately reflects the conditions we found
during the scope of our audit. Throughout the course of fieldwork and the draft reporting
process, OIG has provided PBGC with clear, fact-based, and actionable information for
the Corporation to correct weaknesses within the Recruitment, Retention and Relocation
(3Rs) program, as well as the student loan repayment program (SLR). We are pleased to
report that PBGC has already taken action to correct a number of internal control
weaknesses.

Despite PBGC’s corrective actions and OIG’s transparency from the initiation of the
audit until final report issuance, the Corporation expressed general disagreement with the
findings in this report. We strive to issue final reports in a timely manner, but are always
mindful of audit standards and our internal quality control processes that require our
work to undergo a rigorous examination of facts and a detailed supervisory review
process. We provided PBGC multiple briefings and lengthy timeframes to respond to
draft reports. After each briefing and correspondence, we considered each point
presented by the Corporation. OIG exercised the time needed for our deliberative review
process; generally, we discovered that the “new” information PBGC provided was not
new but a repackaging of information we had already obtained and assessed during the
course of our audit.

We carefully considered PBGC’s responses to this draft report, including their general
disagreement with the findings and recommendations. Despite multiple requests to the
agency to submit specific information demonstrating how they implemented the new
controls and evidence of their effectiveness, including most recently at the Exit
Conference, PBGC once again provided a large binder of documents. This transmittal
memorandum responds to certain issues PBGC raised and provides further clarification
so the Corporation can better understand and provide appropriate evidence of corrective
actions to improve a key Human Resources Department (HRD) program.

The Role of the Office Inspector General and Transparency

PBGC’s response to this report shows that it may not fully appreciate Federal OIG audit
processes and standards. For example, PBGC takes issue with our audit scope
description, asserting that OIG made five requests for additional documentation after
March 2013 – this is a common practice as auditors are drafting reports and completing
the referencing process. Also, the Corporation’s response to this report focused on
current conditions, rather than those existing during the audit scope. We expressed to
PBGC on multiple occasions that an audit is always based on a point-in-time which is
why standards require us to be explicit with respect to nature, timing and extent of testing
– objective, scope and methodology; the time frame in this audit included all incentives
that were paid or in effect from calendar year (CY) 2010 through CY 2012; we
performed field work from December 2011 through March 2013.

One of the core functions of an OIG is the promotion of transparency. PBGC cites
several issues as “stale” that OIG reported – the fact is the exceptions noted by PBGC
represent accurate conditions that occurred during the scope of our audit. PBGC did
award law clerks superior qualifications without complete information and required
documentation. We discussed this issue with HR officials. Shortly thereafter, the
Corporation took action to correct this internal control weakness, but during the scope of
our audit this weakness existed. Importantly, our Government Audit Standards state that:
“Audits provide essential accountability and transparency over government programs.”
We are stating facts about the conditions we found in this case and throughout the report.

We also note that we gave PBGC credit for taking corrective action on this internal
control weakness. PBGC stresses that we did not consider additional evidence they
provided. This is simply not true, and we refer PBGC to the paragraph below on page 12
of the report:

       “To PBGC’s credit, during the course of our audit, on February 9, 2012,
       PBGC established a Memorandum of Understanding (MOU) and Standard
       of Procedure for the Use of Superior Qualifications Hiring Authority for
       Law Clerk Hiring. (See Appendix I). The agency no longer uses the
       previous MOU to hire law school graduates at the GS-11 grade level. The
       new MOU provides procedures for hiring law clerks at the GS-11 grade
       level and commensurate step based on the job candidate meeting two or
       more required criteria. The requesting official is now required to
       document each determination to use a Superior Qualifications authority in
       accordance with the Federal regulations. (5 CFR § 531.212(e)). HRD will
       review and approve Superior Qualifications, make the job offer, and
       maintain files pursuant to applicable Federal regulations criteria.”




                                             2
We included no recommendation for this condition because we considered the evidence
PBGC provided. However, we are required by audit and professional standards to be
transparent and report on the conditions we find, even if PBGC has reported mitigation of
said condition afterward.

PBGC takes exception to our reporting of a $138,379 recruitment incentive that was
awarded without any documentation. We determined that this incentive was in fact
awarded contrary to PBGC and OPM policy. PBGC’s response addresses their
justification for the award, an issue that is outside the scope of our audit. It is important
to note that OIG did not opine (in any instance) on the rationale and justification
surrounding any incentive. Rather we focused this audit on internal controls for the
incentives and pay flexibilities programs, and documentation of and support for the
monetary awards. Moreover, PBGC acknowledged this $138,379 incentive had neither
documentation nor support. Generally, effective documentation demonstrates a well-
planned and executed business process; PBGC is aware of this, and yet still disagrees
with this finding. We find PBGC’s position to be perplexing; it could appear to be an
effort to discourage our transparency. The facts and circumstances of this incentive are
accurate and warrant disclosure in our report. We remain steadfast in our reporting
practices and reiterate that we are committed to communicating our findings and
conclusions.

Clarification regarding number of employees that received SLR $40,000 or above.

PBGC asserts that OIG’s count on the number of employees who received SLR above
$40,000 is incorrect. OIG determined the following: “We found that in 14 out of 21
instances (67%) employees received SLR benefits of $40,000 or higher.” The chart
below provides additional detail, the department and SLR Amount.

Number of           Department                         SLR Amount
SLR’s
Employee 1          Office of the Chief Counsel        $40,000
Employee 2          Corporate Finance &                $45,000
                    Restructuring Department.
                    Formerly referred to as
                    Department of Insurance
                    Supervision and Compliance
                    (DISC)
Employee 3          Office of the Chief Counsel        $40,000
Employee 4          Office of the General Counsel      $40,000
Employee 5          Office of the General Counsel      $40,000
Employee 6          Office of the Chief Counsel        $40,000
Employee 7          Office of the Chief Counsel        $60,000
Employee 8          Office of the Chief Counsel        $40,000
Employee 9          Office of the Chief Counsel        $40,000
Employee 10         Benefits Administration            $40,000
                    Payment Department


                                              3
Employee 11        Office of the Chief Counsel        $40,000
Employee 12        Office of the General Counsel      $40,000
Employee 13        Office of the Chief Counsel        $40,000
Employee 14        Communication and Public           $40,000
                   Affairs

A Two-part Mandatory Test Cannot Rest on “Implicit” Criteria within Agency Directive

PBGC objects to the finding that the agency must determine “the employee would be
likely to leave Federal service in absence of the incentive.” PBGC based their objection
on the assertion that this was “implicitly” included within other criteria. This is incorrect
for several reasons. First, the regulation makes it clear that the criteria for awarding a
retention incentive is a mandatory 2-part test: (1) unusual/unique qualifications of the
employee or special needs of agency make it essential to retain the employee AND (2)
the employee is likely to leave if the retention incentive is not awarded. The two criteria
are different and must both be explicitly analyzed. Second, the “implicit” criteria PBGC
cites – e.g., “the extent to which the employee’s departure would affect the agency’s
ability to carry out an activity, perform a function, or complete a project the agency
deems essential to the mission” – addresses the first part of the mandatory test: whether
the employee is performing a mission-essential function. The fact that an employee’s
contribution is mission-essential (test 1) does not mean that the employee is likely to
leave Federal service (test 2). Finally, PBGC acknowledged in its response that they
changed their policy in 2013 to require “a finding that one requirement for awarding a
retention incentive be that the employee is likely to leave federal service, in accordance
with OPM regulations.” This occurred very late in our audit process and evidence of its
effective implementation was not provided.

PBGC Overly Reliant on OPM Evaluation, Despite Acknowledging Program Lapses

PBGC states that OPM evaluated PBGC’s incentive programs and superior qualifications
in 2010 and 2012. OPM reviewed PBGC policies and procedures and evaluated records
for a selected sample of personnel actions. PBGC asserts the Corporation is entitled to
rely on OPM’s interpretation of its own regulation and polices when assessing PBGC’s
compliance. Moreover, PBGC states:

       “Specifically, in 2010 and 2012 the use of PBGC’s pay flexibilities (e.g.
       recruitment and relocation incentives and superior qualifications and
       special needs pay setting) were found to have proper documentation and
       justification for recruitment incentives, established policy on superior
       qualifications and specials needs pay settings authority, and a satisfactory
       superior qualifications authority checklist used by HRD Staffing
       Specialists when assisting managers in making superior qualification
       determinations.”




                                              4
We cannot opine on OPM’s review methodology without access to its work and
supporting documentation, but can affirm that audits conducted under Generally
Accepted Government Auditing Standards (GAGAS) occur under a framework for
conducting high quality audits with competence, integrity, objectivity, and independence.
The Corporation could also not comment on the scope and methodology of the OPM
review, but merely provide OPM results as evidence of “compliance.” PBGC has
acknowledged two instances of internal control weaknesses which occurred during
OPM’s scope periods: 1) a $138,379 recruitment incentive without any supporting
documentation and 2) the superior qualifications pay for nine law school graduates
without documentation they met the criteria. Yet, OPM’s reports were silent on both.
These conditions raise questions about PBGC’s heavy reliance on OPM’s review and
directly contradict the Corporation’s tacit and concrete acknowledgement of the
conditions found by OIG.

OPM’s review, while valuable, should not stand alone when considering the internal
control reality at PBGC. For its fifth consecutive year, PBGC has received an adverse
opinion on internal control in the financial statement audit. Our performance audit work
similarly has found lack of controls, weak controls, or non-operational controls
throughout the agency. The remediation steps that the PBGC has taken in response to
this audit show that it needed to address the general problem in internal controls for the
operations of its compensation flexibilities and incentive programs.

OIG agreement with change to final report

We agree with PBGC’s observations with respect to the 3Rs service agreements on page
14 of the draft report – 5 CFR § 575.314 applies to retention award service agreements
for those employees who are likely to leave PBGC for other Federal service and there
were no such awards; and the CFR does not require PBGC to include non-mandatory
termination conditions in service agreements. Thus, we have removed those cited
“discrepancies” from the final report.

We note however, that we issued a discussion draft report to PBGC on March 27, 2014,
which contained these two issues. We held multiple discussions with PBGC officials,
including a formal meeting on May 16, 2014, at which time PBGC produced a large
binder of information they believed we had not considered. PBGC did not raise a
challenge to our interpretation of the CFR provisions until September 5, 2014, when they
formally responded to the draft report we issued more than five months prior. The
purpose of issuing a discussion draft is to confirm our findings and have timely,
substantive, discussions with management on issues and concerns; waiting until
providing a written response to the final report is not useful for either OIG or the agency.




                                             5
Closure of Two Recommendations

Based on documentation provided after the official draft report, we concur with closure
of the recommendations below upon issuance of the final report.

Recommendation 1: In accordance with the CFR, when offering a recruitment incentive,
obtain required and written approvals to support the determination to the pay the
incentive.

Recommendation 6: In accordance with the CFR and OPM guidelines conduct annual
review of those receiving 3Rs incentives, document and validate whether conditions
continue to warrant the award and the employee meets all eligibility requirements.




cc:
Patricia Kelly        Sandy Rich         Judith Starr
Ann Orr               Jioni Palmer       Marty Boehm




                                            6
EXECUTIVE SUMMARY

The Pension Benefit Guaranty Corporation (PBGC) did not consistently apply incentives and
compensation flexibilities1 (flexibilities) related to recruitment and retention in compliance with
the Code of Federal Regulations (CFR) and Office of Personnel Management (OPM) policies.
This occurred because the programs did not have effective governance or adequate controls,
including effective policies and procedures. As a result, student loan benefits and incentives
were awarded with varying levels of documentation and support which resulted in mandatory
criteria not being applied and justifications not being consistently and completely documented.

Lack of Documentation. PBGC awarded a large recruitment incentive without any
documentation. At the direction of a former PBGC Director, in 2008, PBGC awarded a
$138,379 recruitment incentive without a written justification and a signed service agreement.
The incentive is the highest recruitment incentive PBGC has paid since establishing the
Recruitment, Relocation, and Retention (3Rs) Program in April 2005. PBGC policy requires a
written recommendation and an authorization that includes a specific recruitment incentive
amount and length of the service period. The failure to follow internal controls could lead to
fraudulent activity.
Missing Mandatory Requirements. PBGC’s policy omitted some mandatory requirements for
3Rs and Student Loan Repayment (SLR) incentives. Federal regulation requires an agency to
establish criteria for paying a retention incentive and it must monitor the use of 3Rs incentives to
ensure that its plan and the payment of incentives are consistent with Federal regulations and
criteria. For example, one important requirement for awarding a retention incentive is that the
agency determine the “unusually high or unique qualifications” of the employee or “special
needs of the agency” for the employee’s services makes it “essential” to retain the employee; and
PBGC omitted that the employee would be likely to leave the Federal service in the absence of
the retention incentive. In response to the feedback OIG provided during the course of the audit,
PBGC issued a new 3Rs Directive in October 2013 which addressed a number of the missing
elements that we identified during our work, including “likely to leave Federal service.” The
Directive is a first step in establishing adequate controls to ensure the 3Rs program is effective
and operating in compliance with OPM standards and the CFR. We commend PBGC on being
proactive.
Guidelines for Incentive Amounts and Service Agreements Inadequate. PBGC did not have
adequate guidelines for determining 3Rs and SLR incentive amounts and length of 3Rs
agreements. Before paying 3Rs and SLR incentives, an agency must establish a plan that
includes requirements such as determining the amount of the incentive and length of service
period. PBGC’s new 3Rs Directive and recently developed draft SLR Directive provides
additional guidelines for management when determining incentive amounts and length of service
periods. We did not select a sample of new service agreements to determine if the new Directive
is operating effectively; our scope period ended in calendar year 2012 and the new control
                                                            
1
 PBGC uses compensation flexibilities (flexibilities) that allow payment of monetary benefits to employees or
prospective employees, such as the Recruitment, Relocation, and Retention Program, Student Loan Repayment
Program, and the Superior Qualifications and Special Needs Pay-Setting authority.


                                                               i 
 
 


(PBGC’s 3Rs Directive) had not been in place long enough to test its effectiveness (less than one
year). We look forward to reviewing a sample of new service agreements through the
recommendation completion process.
Superior Qualifications Undocumented. Under the Superior Qualifications authority, PBGC
increased the base pay offered to nine law school graduates without sufficient documentation. At
the time of our review PBGC did not provide written determinations, documentation evidencing
a review and approval process and adequate support for PBGC’s determination that the
individuals met two or more of the criteria to justify the superior qualifications salary increase.
PBGC implemented a new policy during our audit to require written analysis and documentation.

Continued Eligibility Unverified. PBGC did not have assurance that employees who received
3Rs and SLR incentives continued to meet the terms of their service agreements. This occurred
because PBGC did not effectively monitor 3Rs incentives and SLR agreements. As a result,
PBGC could not ensure that employees who received 3Rs and SLR remained eligible to receive
the agreed-upon incentive. PBGC reported that a review of 3Rs awardees’ records was
completed in 2014; no exceptions were identified as a result of their review. We commend
PBGC on initiating the review after we identified and reported this issue during our audit.

PBGC Correctly Calculated Retention Incentives. After completion of our fieldwork, we
observed that PBGC interpreted OPM’s regulation for the calculation of the maximum retention
incentive amount (5 CFR § 575.309) differently than other Federal agencies. In evaluating
PBGC’s retention incentive calculation methodology, we reviewed a cabinet-level agency’s
retention policy and consulted the Interior Business Center (IBC), the federal shared services
center that PBGC OIG uses for human resources. Both Federal agencies interpreted the CFR
language “may not exceed 25% of an employee’s basic pay” as establishing that 25% was the
maximum retention incentive that could be paid, whether paid for one year or over several years.
PBGC had a different understanding of the retention incentive regulation. It believed that an
agency could pay the maximum retention incentive (25%) each year over a multiyear service
agreement. We sought written clarification from OPM and found that PBGC correctly
interpreted the calculation methodology. In its clarification letter, OPM stated it would take
steps to ensure consistent interpretation across the Federal government.




                                                 ii 
 
 


                                                    TABLE OF CONTENTS


Executive Summary ............................................................................................................. i

Background ..........................................................................................................................1

                  Figure #1 – Sample of Incentives ...................................................................2

                  Figure #2 – PBGC Approved Compensation Flexibility Amounts .................2

                 Objective ...........................................................................................................3

Finding 1 – PBGC Did Not Consistently Award Incentives and Pay Flexibilities in
            Compliance With Federal Regulations and Guidance .....................................4

                  PBGC awarded a large recruitment incentive
                  without any documentation ..............................................................................4

                  PBGC’s policy omitted some mandatory requirements for
                  3Rs incentives ..................................................................................................5

                  3Rs incentive amounts and lengths of service agreements lacked
                  support to distinguish between incentives awarded .........................................6

                  Figure #3 – PBGC Awarded Recruitment Incentives ......................................8

                  Figure #4 – PBGC Awarded Retention Incentives .........................................9

                  SLR repayment amounts lacked support to distinguish
                  between benefits awarded ................................................................................9

                   PBGC Superior Qualifications were awarded without
                   complete information and required documentation ......................................11

                   Recommendations .........................................................................................12


Finding 2 – Written Service Agreements Were Inconsistent and Often Lacked Required
            Information ...................................................................................................15

                   Written SLR service agreements were inconsistent with evidence supporting
                   different treatment .........................................................................................15

                   PBGC approvals and oversight focused on administrative
                   processing, not adequate documentation ......................................................16


                                                                       iii 
 
 


                 Recommendations .........................................................................................17

Finding 3 – PBGC Did Not Have Assurance that Employees Receiving 3Rs and SLR
            Incentives Remain Eligible ........................................................................... 19

                 Recommendation ..........................................................................................20

PBGC Correctly Calculated Retention Incentives .............................................................20

Appendices

    Appendix A – Scope and Methodology .......................................................................22

    Appendix B – PBGC’s Response ................................................................................23

    Appendix C – Criteria on 3Rs, SLR, and Superior Qualifications ..............................24

    Appendix D – 3Rs Determination Worksheet and 3Rs Policy/Plan ............................25

    Appendix E – SLR Determination Worksheet.............................................................26

    Appendix F – Factor Ranking/Repayment Amount Determination Guide .................27

    Appendix G – SLR Request and Approval Benefits Application ...............................28

    Appendix H – December 8, 2000 Memorandum for Hiring Law School Graduates ..29

    Appendix I – February 9, 2012 Memorandum for Hiring Law School Graduates ......30

    Appendix J – OPM Example Calculating a Retention Incentive .................................31




                                                                 iv 
 
                                                         BACKGROUND AND OBJECTIVE

BACKGROUND

The Employee Retirement Income Security Act of 1974 (ERISA) created the Pension Benefit
Guaranty Corporation (PBGC) to encourage the continuation and maintenance of voluntary
private defined benefit pension plans, provide timely and uninterrupted payment of pension
benefits, and keep pension insurance premiums at the lowest level necessary to carry out the
Corporation’s obligations under ERISA. PBGC protects the retirement incomes of
approximately 44 million American workers in more than 27,500 private-sector defined benefit
pension plans. PBGC insures, subject to statutory limits, pension benefits of participants in
covered private defined benefit pension plans in the United States. A defined benefit plan
provides a specified monthly benefit at retirement, often based on a combination of salary and
years of service. PBGC pays monthly retirement benefits, up to a guaranteed maximum to
nearly 801,000 retirees in 4,200 single-employer and multiemployer pension plans that cannot
pay promised benefits. PBGC is not funded by general tax revenues. To accomplish its mission
under ERISA, PBGC relies on approximately 900 federal employees from wide-ranging fields of
expertise, including accountants, actuaries, attorneys and information technology specialists,
amongst others.

To assist in addressing human capital needs, PBGC uses incentives and compensation
flexibilities (flexibilities) that allow payment of monetary benefits to employees or prospective
employees, such as the Recruitment, Relocation, and Retention (3Rs) Program, Student Loan
Repayment (SLR) Program, and the Superior Qualifications and Special Needs Pay-Setting
(Superior Qualifications) authority. Based on a September 2013 National Academy of Public
Administration (NAPA) report on PBGC’s governance and pay structure, we expect usage may
increase. NAPA found that PBGC’s pay structure is substantially lower than financial regulatory
agencies. In NAPA’s report, PBGC explained the agency’s heavy reliance on the types of
financial and actuarial expertise that are similar to those in financial regulatory agencies. PBGC
believes that employees are under-compensated relative to their counterparts in financial
regulatory agencies. PBGC officials believe that this negatively affects the Corporation’s ability
to recruit the talent needed to retain a well-trained and experienced staff. The NAPA report
specifically stated:

              In the near-term, PBGC should address key work environment issues and use the
              agency’s existing compensation flexibilities and incentives.

              …compensation flexibilities and incentives have proven to be valuable tools to
              improve recruitment and retention. PBGC should take advantage of all available
              options to strengthen its ability to attract new candidates or retain current
              employees. In addition, as GAO pointed out in its 2008 report, PBGC would be
              able to make a better case for why it needs an alternative compensation structure
              after fully exploring all existing compensation flexibility and incentive options.2
                                                            
2
  National Academy of Public Administration, The Governance Structure of the Pension Benefit Guaranty 
Corporation an Independent Review, September 2013.   


                                                                    1 
 
 



The PBGC Human Resource Department (HRD) is responsible for managing and implementing
flexibilities. During the scope of our review, PBGC had 136 flexibilities in effect.3 We reviewed
a sample of 74 flexibilities.

                                                               Figure #1 – Sample of Incentives

           Compensation Flexibilities Type                                         CY2010   CY2011      CY2012         Total
           Recruitment, Relocation, and Retention (3Rs) Program                      12       5           8             25
           Student Loan Repayment (SLR) Program                                      10       7           4             21
           Superior Qualifications Authority                                         16       7           5             28
                                    TOTAL                                            38       19          17            74



Based on our sampled population, PBGC awarded $2,032,701 in flexibilities.4

                            Figure #2 – PBGC Approved Compensation Flexibility Amounts

                                                                                                 Total Approved
                            Compensation Flexibility Type
                                                                                                    Amounts*
                            Recruitment, Relocation, and Retention (3Rs) Program                           $643,015
                            Student Loan Repayment (SLR) Program                                           $741,194
                            Superior Qualifications Authority                                             $648,4925
                                                                                  TOTAL                  $2,032,701
                                         *The aggregate dollar value is based on our samples as noted in Appendix A.


Figure #1 shows a sharp decrease in 3Rs flexibilities (incentives) during calendar years (CY)
2011 and 2012. In a June 10, 2011 memorandum, the Office of Personnel Management (OPM)
required agencies to ensure that spending did not exceed CY2010 levels for 3Rs incentives in
CY2011 and CY2012. The number of SLR benefits did not decrease.6 PBGC reported to OPM
that it paid 38 SLR benefits in CY2011. Figure #1 shows a decrease because we accounted once
for an employee and did not tally each year the employee received the SLR benefit. For
example, an employee received a $40,000 SLR benefit ($10,000 each year) that commenced in
CY2010 – we counted the SLR benefit in CY2010 only and not for subsequent CYs. PBGC
management attributed the decrease in Superior Qualifications to a weakening economy,
departmental budget constraints, and policy changes in offering superior qualifications. For

                                                            
3
   The total includes flexibilities in effect that were either paid during our audit scope or were ongoing incentives as a
result of a 3Rs and SLR service agreement.
 
4
   The aggregated incentive dollar amounts are incentives PBGC approved or were in effect during the audit scope.
 
5
    The total superior qualifications “amount” is the difference in the amount between Step 1 and the Step the
employee was hired.  
6
 The number of SLR incentives PBGC reports to OPM accounts for each SLR benefit paid and therefore the charted
numbers and PBGC’s reported numbers are different, as a result of the methodology used to account for the number
of SLR incentives.



                                                                              2 
 
 


additional information on 3Rs, Student Loan Repayment and Superior Qualifications criteria, see
Appendix C.
PBGC provided evidence of an assessment completed by OPM’s division of Merit System
Accountability and Compliance. The most recent review conducted by OPM and issued in
October 2012 covered the period October 1, 2010 through April 30, 2012. OPM focused on
three implementation systems of the Human Capital Assessment and Accountability Framework
(HCAAF):7 (1) Leadership and Knowledge Management, (2) Results-Oriented Performance
Culture, and (3) Talent Management. Using this framework, OPM states it assessed PBGC’s
Human Capital initiatives and included a review of the delegated examining activities. In our
audit of PBGC’s administration of incentive awards, such as the 3Rs and SLR programs, we
evaluated compliance with statutes, regulations, and OPM policies, and whether program
controls are established and operating effectively. We conducted this audit in accordance with
Generally Accepted Government Auditing Standards (GAGAS), which is a more rigorous
examination and analysis than OPM’s review.
OBJECTIVE

Our objective was to assess whether the Pension Benefit Guaranty Corporation’s (PBGC)
administration of incentive awards related to recruiting and retaining a qualified workforce
complies with statutes, regulations, and OPM policies and procedures and determine if PBGC’s
controls around these programs are in place and operating effectively.

We performed fieldwork for this audit from December 2011 through March 2013. After our
fieldwork concluded we identified an issue regarding the calculation of retention incentives. We
reached out to OPM in July 2014 to obtain clarification of its regulation. Additional information
regarding our observation can be found on page 20 of this report.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS), July 2007. Those standards require that we plan and perform this
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.



                                                            




                                                            
7
   The Human Capital Assessment and Accountability Framework (HCAAF) identifies five human capital systems
that together provide a consistent, comprehensive representation of human capital management for the Federal
Government. The HCAAF fuses human capital management to the merit system principles—a cornerstone of the
American civil service—and other civil service laws, rules, and regulations. 
 


                                                               3 
 
 


Finding 1 – PBGC Did Not Consistently Award Incentives and Pay Flexibilities in
            Compliance with Federal Regulations and Guidance.

PBGC issued incentives for recruitment and retention that did not comply with the Federal
regulations and the Office of Personnel Management (OPM) policies. This occurred because
PBGC did not have effective governance or adequate controls, including effective policies and
procedures. As a result, PBGC awarded 3Rs and other incentives with inconsistent levels of
documentation and support that each employee met the mandatory eligibility requirements and
the terms of the service agreement. PBGC paid a recruitment incentive of more than $138,000
without a written justification and service agreement in place.

PBGC awarded a large recruitment incentive without any documentation.

During the scope of our audit, PBGC awarded (or had in effect) 25 recruitment and retention
incentives under the Recruitment, Relocation, and Retention (3Rs) Program totaling $643,015
with service agreement periods ranging from one year to four years. Payment methods included
initial lump-sum payments, installments, and a combination of the payment methods. According
to Federal regulations, each determination to pay a recruitment incentive must have written
documentation stating that the position is likely to be difficult to fill in the absence of a
recruitment incentive; the reason for the incentive; basis for the amount and timing of the
incentive payments; and the length of the service period. (5 CFR § 575.105(a)–(3)).
Additionally, PBGC’s own policy requires the requesting and approving officials to sign and
date the request. Despite these requirements, PBGC awarded a $138,379 recruitment incentive
to an employee without proper approvals and a signed service agreement. According to Federal
regulations, “[b]efore receiving a recruitment incentive, an employee must sign a written
agreement to complete a specified period of employment with the agency.”8 (5 CFR §
575.110(a)).

In 2008, PBGC’s former Director instructed the Human Resources Department (HRD) Director
to issue a recruitment incentive in the amount of $138,379. The incentive was not only unique in
amount, but there was also no documentation to support this payment, as mandated by Federal
regulations. (5 CFR § 575.108). The recruitment incentive was paid from September 28, 2008
through September 22, 2012. The failure to comply with internal controls and federal statutes
illustrated a lack of governance within the 3Rs program. We found that:

             The position that gave rise to this recruitment incentive was new to the Corporation and
              was not considered as “difficult-to-fill” – an important requirement when awarding
              recruitment incentives. The Federal regulation requires an agency to consider certain
              factors in determining whether a position is likely to be “difficult-to-fill” in the absence
              of a recruitment incentive, such as competencies required for the position, employment
              trends, and salaries typically paid outside the Federal Government. (5 CFR § 575.106(b)-
              (8)).
             The former Director authorized an unprecedented amount; this recruitment incentive is
              the highest PBGC has paid since establishing the 3Rs program. There was no
                                                            
8
      Service agreements are addressed on pages 12 and 13. 


                                                               4 
 
 


              documentation of how this amount was determined as required by Federal regulation and
              PBGC policy. (5 CFR § 575.108(3); PBGC 3Rs Policy/Plan dated May 31, 2005). (See
              Appendix D).
             The employee did not sign a service agreement.
According to Federal regulations, an employee is required to sign a service agreement to
complete a specified period of employment with the agency. (5 CFR § 575.110(a)). Further,
PBGC policy (dated May 2005) states that “no payment may be made until HRD has a written
service agreement with the signature of the employee, the hiring official, and the approving
official.”

A senior HRD official told us that HRD did not have a written justification for the determination
to pay the $138,379 recruitment incentive nor did the Corporation have a signed service
agreement.9 Federal regulations require that before paying a recruitment incentive, an agency
must document each determination in writing and designate an official to review and approve
recruitment payments. The employee’s direct supervisor did not sign-off nor was the supervisor
involved in recommending the incentive. PBGC policy did not give the PBGC Director or any
PBGC employee the authority to award a recruitment incentive without written justification.
Moreover, PBGC policy requires a written recommendation and an authorization that includes a
specific recruitment incentive amount and length of the service period.

Circumvention of the agency’s internal control structure is an important issue that PBGC must
address and avoid in the future. According to the Government Accountability Office (GAO),
internal controls, such as policies and procedures, provide reasonable assurance that programs
will meet their goals and objectives, adequately safeguard resources, assist in ensuring the
agency obtains reliable data and ensure compliance with laws and regulations. (GAO Standards
for Internal Controls in the Federal Government, Nov. 1999). The circumvention of internal
control as demonstrated by this incentive could lead to fraudulent activity, if a single person
within the Corporation is permitted to direct and award incentives while bypassing Federal
oversight and accountability requirements.
PBGC’s policy omitted some mandatory requirements for 3Rs incentives.
According to Federal regulations, an agency may pay a retention incentive if the agency
determines that the “unusually high or unique qualifications” of the employee or “special needs
of the agency” for the employee’s services makes it “essential” to retain the employee; and that
the employee would be likely to leave the Federal service in the absence of the retention
incentive. (5 CFR § 575.301). At the time of our review, PBGC policy (dated May 2005)
omitted “the employee would be likely to leave the Federal service” and a number of other
criteria. PBGC issued a new 3Rs Directive in October 2013 which addressed missing elements
identified during the scope of our audit work, including “likely to leave Federal service.” The
Directive is a first step in establishing adequate controls to ensure the 3Rs program is effective
and operating in compliance with OPM standards and the CFR. We commend PBGC on being
proactive.

                                                            
9
     There was an unsigned service agreement in the file, and the incentive is being paid in a four year service period. 


                                                               5 
 
 


3Rs incentive amounts and lengths of service agreements lacked support to distinguish between
incentives awarded.

Before paying incentives for 3Rs and SLR, an agency must establish a plan that includes:
designations of authorizing officials, eligibility requirements, criteria for determining the amount
of the incentive and length of service period (if not specified by regulation), requirements for
service agreements, and required written documentation.10 In addition, the statute authorizing
payment of these incentives mandates certain prerequisite determinations to assess whether an
incentive should be authorized:

             recruitment and relocation incentives require determinations that the position that the
              candidate (or Federal employee incumbent) is applying to is "difficult to fill in the
              absence of an incentive" (5 CFR §§ 575.101, 575.201) and the regulations provide eight
              factors the agency must consider in making that determination. (5 CFR §§ 575.106(b),
              575.206(b));
             retention and SLR each require a determination that the individual is "highly qualified” (5
              CFR § 575.301; 5 CFR § 537.101); the retention incentive specifies a higher bar: the
              agency must determine that the "unusually high or unique qualifications (i.e.,
              competencies) of an employee or a special need of the agency for the employee's services
              makes it essential to retain the employee..." (5 CFR § 575.301); and
             retention and SLR incentives require a determination that the employee is likely to leave
              Federal service if the incentive is not awarded (5 CFR § 575.315(a)(ii); 5 CFR §
              537.105(2)(ii)). Regulations also specify that the employee must have a rating of record
              of at least "Fully Successful" or equivalent. (5 CFR § 575.315(b)(2); 5 CFR §
              537.108(b)).
PBGC had not developed adequate written plans nor issued adequate guidance for managers and
supervisors to follow. At the time of our review the guidance in effect was PBGC’s 3Rs policy,
dated May 31, 2005; this policy omitted some mandatory requirements such as establishing
required documentation for determining that an employee would be likely to leave Federal
service in the absence of the 3Rs incentive. During the scope of our work, PBGC also used
Incentive Request and Determination Worksheets (worksheet) for each of the 3Rs. These
documents were posted on the PBGC Intranet (See Appendix D). The 3Rs worksheet required
the requesting official to "complete parts A, B, and C of this form," that consists of a proposed
3Rs incentive amount, frequency of the payment, and a service agreement period, along with
written justification.
Our review of the worksheets showed that they did not accurately reflect or institute statutory
and regulatory requirements. The worksheets did not provide requesting officials with any
guidelines or instructions on how to assess these ranking factors. Based on our review of the 25
approved 3Rs incentives, we could not determine how any of the requesting officials determined
the specific proposed incentive rate and length of service period, nor did we find any evidence to
support the requester's ranking factor evaluations for the proposed rate. HRD officials could not
                                                            
10
     5 CFR § 575.107; 5 CFR § 575.207; and 5 CFR § 575.307.



                                                               6 
 
 


provide OIG with clear guidance and instructions on how 3Rs incentive amounts or length of
service period were derived. In October 2013 PBGC issued new 3Rs worksheets which address
whether the individual is “likely to leave federal service,” salaries paid outside the Federal
government and other key factors to be considered before awarding a 3Rs incentive. The new
worksheets along with the new 3Rs Directive are critical first steps in establishing a program
with adequate controls. We did not sample additional incentives to test the effectiveness of the
new worksheets; however, we recognize PBGC’s proactive approach in correcting a weakness
within the 3Rs program.

Federal regulations require the agency to justify in writing proposed 3Rs incentive amounts.11
These regulations also require an agency to monitor the use of their incentives to ensure its 3Rs
plan and incentive payments are consistent with requirements and criteria, and that the incentive
plan is applied uniformly across the agency.12 We found a large variation in 3Rs incentive
amounts and the lack of clarity in guidelines and detailed supporting documentation made it
difficult for us to conclude that the incentives were appropriate and in compliance with
regulations. For example, as noted above, PBGC awarded a $138,379 recruitment incentive
(100% of the employee salary) over a 4-year period without a signed service agreement, while
awarding an $8,000 recruitment incentive with a 3-year service period, and a $20,000
recruitment incentive with a 2-year service period. Additionally, PBGC awarded a retention
incentive of 21% of an individual's salary with a 1-year service period, while awarding a 4 % (of
salary) retention incentive with a 1-year service period, and a 10% (of salary) retention incentive
with a 3-year service period. These differences in amount and length of the retention incentives
may have been appropriate; however, PBGC did not require consistent written justifications and
documentation to support them.

 




                                                            
11
      5 CFR § 575.108(a), (3); 5 CFR § 575.208(a)(i)(iii); and 5 CFR § 575.308(b), (2).
 
12
      5 CFR §§ 575.112(a), 575.107(c); 5 CFR §§ 575.212(a), 575.207(c); 5 CFR §§ 575.312(a), 575.307(c). 


                                                               7 
 
 




For the incentives within our scope, PBGC awarded the following recruitment incentives to
employees across various departments:

                       Figure #3 – PBGC Awarded Recruitment Incentives

              Grade    Recruitment Incentive   Service Period     Payment Method 

              GS‐11           $7,928             1 year              Lump sum  

              GS‐12           $7,500             1 year              Lump sum  

              GS‐13           $8,000            3 years             Combination

              GS‐13           $8,903            2 years              Lump sum

              GS‐13           $8,903            2 years              Lump sum  

              GS‐13           $8,903            2 years              Lump sum

              GS‐14           $5,000            2 years              Lump sum

              GS‐14          $10,000             1 year         Biweekly Installments  

              GS‐14           $7,500             1 year              Lump sum  

              GS‐14          $10,000             1 year              Lump sum

              GS‐14          $20,000            2 years             Combination

              GS‐15          $12,375             1 year              Lump sum  

              GS‐15          $77,464            4 years            4 installments

                SL           $17,970            2 years              Lump sum  

                SL           $74,866            4 years         Biweekly Installments  

                SL         $138,379.28          4 years         Biweekly installments   




                                                          8 
 
 




For the incentives within our scope, PBGC awarded the following retention incentives within
various departments:

                         Figure #4 – PBGC Awarded Retention Incentives
                                                                 
                                      
                Grade       Retention Incentive          Service                      Payment Method 
                           (Percentage of Salary)        Period 
                GS‐13              10%                   3 years                          Bi‐weekly
                GS‐13               4%                   1 year                           Bi‐weekly
                GS‐15              21%                   1 year                           Bi‐weekly
                GS‐15              10%                   1 year                           Bi‐weekly
                GS‐15              10%                   2 years                          Bi‐weekly
                GS‐15              10%                   2 years                          Bi‐weekly
                GS‐15              10%                   3 years                          Bi‐weekly
                 SL                10%                   1 year                           Bi‐weekly



PBGC has developed a new Directive and worksheets to increase controls and better document
the rationale for incentive amounts and service periods. The new Directive provides the
following guidelines:

                          Grade          Incentive Amount                        Service Period
                                         (Percent of Salary) 
                     GS‐9 thru GS‐11          1%‐10%                 1 year service agreement
                     GS‐12 thru GS‐14        11%‐15%                 18 months – 2 year service agreement 
                     SG‐15 thru SL           16%‐25%                 4 year service agreement 


We did not test additional service agreements and supporting documentation to determine if the
new control is effective, but we look forward to reviewing a sample of new agreements through
the recommendation completion process.

SLR repayment amounts lacked support to distinguish between benefits awarded.

The SLR program did not have established written requirements for determining proposed
incentive amounts. During our three-year scope period, PBGC approved SLR benefits totaling
$741,194 to 21 employees. PBGC did not provide adequate documentation to support the
proposed SLR benefits for 15 of the 21 employees which totaled $485,194. The SLR Program
Directive No. PM-25-04, April 6, 2006 (2006 SLR Directive) established policy and
implementation for the SLR Program for all PBGC employees, which included a SLR
Determination Worksheet. (Appendix E). On the Worksheet the requesting official answered
questions and made a determination for each factor to establish a proposed SLR amount; the
requesting official used ranking categories, such as: “good,” “limited,” or “poor.” HRD
personnel then assigned a numeric ranking for each factor and tallied a total ranking number. The
ranking numbers corresponded to a repayment range. The requesting official would then use the
ranking information to determine the amount of the SLR benefit; and after departmental
approvals, the worksheet was sent to HRD for final approval.




                                                                9 
 
 


On February 1, 2011, PBGC implemented SLR Directive No. PM-25-4 NBU (2011 SLR
Directive) that established policy for the SLR program for non-bargaining unit employees. The
2006 SLR Directive remained in effect for bargaining unit employees. The 2011 SLR Directive
discontinued the practice of using the SLR Determination Worksheet form and Factor Ranking,
and Repayment Amount Determination Guide. (See Appendix F). In the 2011 SLR Directive,
the requesting official was given increased deference in determining the amount of the SLR
benefit. The 2011 Directive also led to changes in the application process for both bargaining and
non-bargaining unit employees. PBGC implemented a Student Loan Repayment Request and
Approval Benefits Application (Application) to answer questions regarding the SLR amount and
outstanding loan balance. The requesting official completes the Application along with a written
justification and obtains departmental approval prior to submitting the application to HRD for
approval. There are no instructions or guidance provided to the requesting official to determine a
proposed SLR amount. (See Appendix G). We found that in 14 out of 21 instances (67%)
employees received SLR benefits of $40,000 or higher. PBGC HRD officials and members of
PBGC management could not provide OIG with clear guidance and instructions on how SLR
amounts were derived. During our review, we noted that the majority of Federal employees
receive $40,000 - or the maximum allowed of $10,000 per year over four years. We were told
by key PBGC personnel that an employee will receive SLR benefits based simply on submitting
an approved application.

OIG met with one senior official who approved 3 SLR benefits; the department accounts for
14% of SLR benefits. The manager told us SLR benefits are awarded based on personal
knowledge of an employee’s finances. The manager explained the decision to offer or approve a
SLR benefit is based on the employee’s family wealth and perceived ability to repay the loan.
Knowledge of the employees’ financial situations is known, in part, as a result of employees
talking about their loan debt in casual conversations. Anecdotal "evidence" of personal
circumstances does not meet Federal requirements and would be insufficient to support a SLR
benefit, even if considered in conjunction with the financial disclosures that employees are
required to complete.

Federal regulations require that before an agency can pay a SLR incentive, it must establish: the
criteria for authorizing SLR benefits which includes the amount and timing of the loan payments
(5 CFR 537.103(c)); and a system for selecting employees (or candidates) to receive SLR
benefits that ensures fairness and equitable treatment. (5 CFR § 537.103(d)). During our audit, a
HRD official expressed concern that the 2011 SLR Directive (non-bargaining unit) made HRD’s
role in determining SLR benefits more administrative – simply ensuring the completeness of
paperwork. The official also expressed concern about the absence of guidelines in determining
SLR benefits. The lack of internal control and appropriate governance in awarding SLR benefits
has resulted in a program that did not fully comply with the intention of the CFR.

Under the two SLR Directives, the HRD Director was provided different dollar threshold
authorities. The April 2006 SLR Directive for a bargaining unit employee stated that the HRD
Director can approve a SLR incentive up to $20,000, while the 2011 SLR Directive for non-
bargaining unit employees gave the HRD Director approval authority up to $40,000. Prior to
PBGC establishing the 2011 Directive (for non-bargaining unit employees), the 2006 Directive
applied to bargaining and non-bargaining unit employees. We found that dating back to

                                               10 
 
 


CY2007, HRD directors approved 14 SLR applications for bargaining unit employees beyond
their approval authority. These totaled $574,493 of student loan repayments, of which $294,493
exceeded the HR Directors’ maximum approval authority. We were told that having two SLR
Directives with different approval thresholds created the confusion in authorizing SLR benefits
which resulted in amounts above approval rights being granted.

To PBGC’s credit, the Corporation developed a new Directive (still in draft) for SLR. Upon
issuance, this Directive will replace the directives noted above PM 25-4 (bargaining unit) and
PM 25-5 (non-bargaining unit). PBGC has again demonstrated a willingness to correct a control
deficiency. We cannot opine on the effectiveness of the draft Directive because it is not in place.
However, the draft does include new worksheets to assess eligibility and better aligns with the
CFR and OPM policies. Once the draft Directive is finalized and issued, we look forward to
testing the Directive’s effectiveness through the recommendation completion process.

PBGC Superior Qualifications were awarded without complete information and required
documentation.

Federal regulations state an agency is permitted to use the Superior Qualifications incentive to
pay a candidate above the Step 1 salary when a candidate is newly appointed to Federal Service
and the candidate possesses superior qualifications or fills a special agency need (5 CFR
§ 531.212(b)). The rate of pay is determined by such factors as the candidate’s superior
qualifications, existing salary, labor market conditions, and other related factors (5 CFR
§ 531.212(c)). The CFR requires “each determination must be made in writing and reviewed and
approved by an official of the agency who is at least one level higher than the employee’s
supervisor.” (5 CFR § 531.212 (e)). OPM and PBGC have also issued additional guidance with
respect to Superior Qualifications authority.

The CFR also requires an agency to document each determination for Superior Qualifications
and include the superior qualifications of the individual, an explanation of the factors used to
support the higher rate along with supporting documentation, and the reason for authorizing the
superior qualifications incentive instead of a recruitment incentive. (5 CFR § 531.212(e)(2)(i) –
(iii)). OPM requires “before using the Superior Qualifications authority, agencies must establish
… recordkeeping procedures sufficient to allow reconstruction of the action taken in each case…
the explanation of the factor(s) and supporting documentation used to justify the rate… and the
reason for authorizing a higher than minimum rate instead of or in addition to a recruitment
incentive.” (5 CFR § 531.212).

Under the Superior Qualifications authority, PBGC increased the base pay offered to nine law
school graduates without sufficient documentation, totaling $168,633. The employees were hired
pursuant to a December 8, 2000 HRD memorandum (see Appendix H) that approved the hiring
of law school graduates at the GS-11, Step 10 salary rate as long as two or more criteria were
met:

       Top one Third of Graduating Law School Class;
       Outstanding Undergraduate Record;
       Graduate Degree in Area Relevant to Pension Issues;


                                                11 
 
 


       Judicial Clerkship;
       Law Review Membership;
       Participation in Clinical Programs, Advance Moot Court, etc.;
       Professional Work in Corporate Bankruptcy;
       Significant Legal Work While Attending Law School; or
       Legal Experience Involving Pension law.
At the time of our review PBGC did not provide written determinations, documentation
evidencing a review and approval process. Overall, PBGC provided inadequate support for each
of the nine law school graduates within our sample. A manager in the legal department told us
that if PBGC was not able to use the authority to hire at the GS-11, Step 10 salary cited in the
HRD memo, it would be impossible to hire quality attorneys.

To PBGC’s credit, during the course of our audit, on February 9, 2012, PBGC established a
Memorandum of Understanding (MOU) and Standard of Procedure for the Use of Superior
Qualifications Hiring Authority for Law Clerk Hiring. (See Appendix I). The agency no longer
uses the previous MOU to hire law school graduates at the GS-11 grade level. The new MOU
provides procedures for hiring law clerks at the GS-11 grade level and commensurate step based
on the job candidate meeting two or more required criteria. The requesting official is now
required to document each determination to use a Superior Qualifications authority in accordance
with the Federal regulations. (5 CFR § 531.212(e)). HRD will review and approve Superior
Qualifications, make the job offer, and maintain files pursuant to applicable Federal regulations
criteria.

        RECOMMENDATIONS:
           1. In accordance with the CFR, when offering a recruitment incentive, obtain
              required documentation and written approvals to support the determination to pay
              the incentive (OIG Control Number HRD-16).

               PBGC Response:
               PBGC has established controls and obtains required documentation and
               approvals prior to issuance of recruitment incentives as outlined in the
               determination worksheet, Attachment A of the 3R's Directive and all applicable
               regulations. In an ongoing effort to improve our programs, we have revised and
               updated our tools and processes. The fact that there has been no similar re-
               occurrence of the incident from six years ago should validate that the proper
               controls are in place, and that the one instance is not a representative sample.
               OIG Evaluation:
               This recommendation will be closed upon report issuance.


           2. In accordance with the CFR and OPM policy, establish written requirements for
              determining proposed incentive rates for SLR benefits (OIG Control Number
              HRD-17).

                                               12 
 
 



    PBGC Response:
    PBGC is in compliance with both the CFR and OPM policy. Notably, there is no
    regulatory requirement for an agency to establish requirements for determining
    proposed SLRP amounts. However, to support best practices, moving forward the
    draft SLRP Directive provides guidance for supervisors to consider when
    determining incentive amounts.

    OIG Evaluation:

    OIG disagrees with PBGC’s response and position on this
    recommendation. The Code of Federal Regulations 5 CFR 537.103 states
    (note section c):

    Before providing student loan repayment benefits under this part, an
    agency must establish a student loan repayment plan. This plan must
    include the following elements:

    (a) The designation of officials with authority to review and approve
    offering student loan repayment benefits (which may parallel the approval
    delegations used for other recruitment, relocation, and retention
    incentives);

    (b) The situations in which the student loan repayment authority may be
    used;

    (c) The criteria to meet or consider in authorizing student loan
    repayment benefits, including criteria for determining the size and
    timing of the loan payment(s);
    (emphasis supplied)

    Throughout the course of this audit and based on our review of Student Loan
    Repayment (SLR) documentation, it was apparent that PBGC employees typically
    received $40,000 in student loan repayments. No written analysis to determine
    the SLR amount was produced for any of the SLR awards. Agency officials
    could not provide a rationale as to why employees received the flat rate of
    $40,000 -- other than that the maximum PBGC can award annually is $10,000 and
    service agreements are typically for 4 years, hence, the $40,000 SLR. PBGC
    awarded the maximum amount to the majority of employees that applied for the
    program, without any justification as to why the maximum amount was awarded
    rather than a lesser amount. We viewed and continue to view this as an internal
    control issue. PBGC’s response acknowledges the issue: “However, to support
    best practices, moving forward the draft SLR Directive provides guidance for

                                    13 
 
 


       supervisors to consider when determining incentive amounts.” We took
       exception that guidance was not being provided to supervisors and the fact that
       the vast majority of participants received the maximum annual $10,000 without
       any documented support as to why the individual received the maximum. PBGC
       appears to agree, that providing guidance to supervisors is an important step in
       determining incentive amounts. Moreover, our reading of the CFR supports that
       PBGC should have had this control in place during the scope of our audit and
       PBGC seems to acknowledge this weakness; hence, the establishment of new
       criteria within the draft SLR Directive that has not yet been issued and
       implemented.


    3. Periodically provide information to PBGC managers on 3Rs incentives and SLR
       including the procedures for nomination, writing justifications, and required
       supporting documentation (OIG Control Number HRD-18).
       PBGC Response:

       HRD already provides guidance and information to managers:
          Managers/supervisor informational sessions on 3R 's on a recurring and
             requested basis, outlined in the HRD ala carte training menu
          3R 's manager/supervisor presentations (lunch and learn session)
          3R 's manager/supervisor fact sheets
          3R 'sand SLRP one-on-one consultations as requested by the
             manager/supervisor
          Advertisement of SLRP via Captiva informational screens
          SLRP informational emails (Corporate-wide)

       OIG Evaluation:

       PBGC cites several ways it provides “training” to managers; however, this is
       testimonial evidence. During the audit and the lengthy draft report process, PBGC
       did not provide any evidence that these control have been executed and are
       operating effectively. In addition, though this “training” may be available it is not
       mandatory, so there is no assurance that those offering the incentives are
       knowledgeable of the requirements. This was born out in our audit. Although
       PBGC may offer guidance to managers, the current program was ineffective
       based on OIG’s testing of 3Rs and SLR. We noted that for the both 3Rs and SLR
       programs no PBGC official could explain the rationale for amounts that were
       awarded. OIG recognizes that a cookie-cutter approach is not required when
       awarding incentives; however, providing guidance and instructions to managers is
       a key control for an effective 3Rs and SLR program. PBGC appears to agree with
       OIG, as the new 3Rs Directive and the SLR draft Directive both include

                                        14 
 
 


                             guidelines for managers to follow when awarding incentives. Given that PBGC
                             has just recently made this change as a result of OIG pointing out weaknesses
                             within the 3Rs and SLR programs, this recommendation is designed to ensure
                             PBGC managers responsible for nominating employees receive the proper
                             training and guidance on the new Directives. The previous process PBGC had in
                             place resulted in incentives that perhaps justifiable could be not be explained or
                             traced to any agency criteria or standards.


Finding 2 – Written Service Agreements Were Inconsistent and Often
            Lacked Required Information.

Written service agreements for the 3Rs and SLR incentives did not consistently contain required
clauses as prescribed by the Federal regulations.13 This occurred because PBGC has not
implemented a disciplined process for granting and approving 3Rs and SLR incentives. As a
result, PBGC may not be able to enforce key provisions required by the Federal regulations, and
PBGC could have more difficulty rebuking claims of inequitable treatment.

Written SLR service agreements were inconsistent with evidence supporting different treatment. 

Statutes and regulations require written service agreements for virtually all 3Rs and SLR
incentives.14 A service agreement is an agreement between the agency and the employee
specifying that the employee will complete a period of employment with the agency in return for
the payment of an incentive. The service agreement bounds the parties to the terms and
conditions set out in the agreement; an executed agreement creates a legal obligation between the
parties. Each service agreement should have some common terms and conditions, such as the
obligation to remain employed for the duration of the service period and consequences for not
completing the service agreement period. The service agreements should also include conditions
applicable to that specific incentive, such as maintaining an acceptable performance rating. Once
signed, the parties are obligated to the terms and conditions in the agreement and are expected to
abide by those terms.

The one exception to the written service agreement requirement is for a retention incentive that is
paid bi-weekly in equal installments. Federal regulations state that a written agreement is not
required (5 CFR § 575.310(f)-(2)) in that circumstance. Though the regulation did not provide a
rationale for this exception, when the retention incentive is paid bi-weekly, the employee "earns"
the incentive while he/she is working during the agreed-to service period. Accordingly, if the
incentive is terminated, the employee has not incurred a liability which must be repaid.

Upon our review of SLR service agreements for 21 employees, we found discrepancies among
the agreements and no documentation to support the differences:
                                                            
13
        5 CFR § 575.110; 5 CFR § 575.210; 5 CFR § 575.310; and 5 CFR § 537.107.
14
      5 CFR § 575.110; 5 CFR § 575.210; 5 CFR § 575.310; and 5 CFR § 537.107. 


                                                               15 
 
 


           In six SLR service agreements totaling $215,000, PBGC required the employees to
            reimburse the agency if they separated from PBGC to work for another agency;
           In 13 service agreements, PBGC did not require the employee to reimburse the agency if
            they separated from PBGC to work for another agency; and
           In the remaining two service agreements, PBGC only required the employee to reimburse
            the agency if they separated from Federal service.
Federal regulations do not require the employee to reimburse the agency unless it is specified in
the service agreement.
PBGC approvals and oversight focused on administrative processing, not adequate
documentation.

3Rs and SLR statutes provide that the “head of the agency” is involved in awarding incentives.
For example, the statutes authorizing the 3Rs states that OPM “may authorize the head of the
agency to pay” the particular incentive “only if” the specific enumerated requirements are met.
The SLR incentives statute states “an agency may, establish a program…[for] the agency to
repay…any student loan.” The regulation defines an authorized agency official as the head of
the agency or an official who is authorized to act for the head of the agency.15 Thus, the
authorizing official is in the key role of carrying out a statutory requirement on behalf of the
agency head when he/she is “determining” whether the incentive may legally be made.

During the scope of our work, the PBGC policy for the 3Rs program and the Guidance and
Determination Worksheets specified levels of review and approval. First, the 3Rs Program
Manager in HRD certified that the request package met “regulatory and/or agency guidelines.”
For each incentive that is 10% or less, the HR Director signed as approving or disapproving the
incentive; above 10%, the PBGC Director approved or disapproved.

For the SLR program, the following HRD approval process is set forth in the SLR Directive for
non-bargaining unit employees:

              HRD SLR Program Manager –

                            Reviews SLR application for compliance with PBGC policy that requesting
                             official provided all required documentation;
                            Determines eligibility based on such factors as an acceptable performance rating;
                             and no disciplinary actions; and
                            Verifies loan type, loan balance, and whether the loan is in good standing.

              HRD Director –

                            Approves the SLR application;
                            Notifies the employee; and
                                                            
15
      5 USCA § 5753 (3)(b)-(II); 5 USCA § 5754 (3)(b)-(B); 5 USCA§ 5379 (b)(1)-(B); 5 CFR § 575.102; 5 CFR
     § 575.202; 5 CFR § 575.302; 5 CFR § 537.101; 5 CFR § 537.102. 


                                                               16 
 
 


              Authorizes the SLR payment.
An HRD official informed us that signing-off only indicated that paper work is in order. The
determination about who received benefits and the amount paid was made at the program level.
In our opinion, ensuring paperwork was adequately processed failed to meet the intent of the
statute to act for the head of the agency as the authorizing official to review and approve each
written determination to pay a SLR benefit (5 CFR §§ 537.102, 106(3)). As result of HRD’s role
being viewed and carried out as mostly administrative, 3Rs and SLR benefits were inconsistently
awarded with key provisions missing from service agreements. Furthermore, it does not appear
that HRD’s administrative focus was effective if their documentation review did not catch these
lapses.

       RECOMMENDATIONS:

           4. Improve controls to align SLR and 3Rs service agreements more closely to the
              CFR and OPM policies, by applying consistent contract language and provisions
              for similar types of agreements (OIG Control Number HRD-19).

               PBGC Response:

               With the exception of three service agreements noted above, the agreements for
               both programs are consistent in language and contain all the required regulatory
               provisions for each program as outlined in the CFR and OPM policy. While
               language varied depending on the iteration, the service agreement language used
               was adequate and in compliance with regulations.

               OIG Evaluation:

               OIG observed in this report that similar service agreements contained different
               provisions; such as the conditions under which an employee would have to
               reimburse upon separation from PBGC. We agree it is PBGC’s prerogative to
               include different provisions under similar agreements. The agency does have the
               authority to require one employee to reimburse if they separate before a service
               period and not require reimbursement from another employee. Because there
               was no documented justification and no one could explain the variance in
               provisions, we cannot conclude this was a strategic decision based on each
               employee’s circumstances but rather a demonstrated lack of control and oversight
               within the respective programs. This observation is based on our assessment of
               the control environment within the 3Rs and SLR programs. Moreover, these
               variances, if ever challenged could present the Corporation with an issue of
               fairness and disparate treatment. An employee could question why they would
               have to reimburse under their agreement while another employee under a similar
               agreement is not required to reimburse the Corporation. Again, OIG disagrees
               with PBGC’s position on this recommendation and believes the agency should

                                              17 
 
 


       ensure similar agreements for comparable classes of employees share consistent
       language, particularly as it relates to reimbursement clauses.


    5. Implement controls to make HRD’s review and approval process for 3Rs and SLR
       incentives more substantive (OIG Control Number HRD-20).

       PBGC Response:

       The current review and approval process is quite substantive.

       HRD’s SOP has these controls, and management provided the SOP to the OIG.

       As a best practice, the draft SLRP Directive outlines a new approval process
       which clearly defines the approval authority for funding thresholds (see Section 8,
       b(J)).

       OIG Evaluation:

       This recommendation requires PBGC to “implement controls;” it is not enough to
       issue a directive or guidance. Implementation includes communication of and
       training on the controls to those who are impacted or must comply. Furthermore,
       the agency must provide ongoing monitoring of these controls to demonstrate
       effectiveness. OIG’s review of sampled documentation and discussions with
       PBGC officials strongly support the implementation of this recommendation. The
       HRD Director told OIG that HR officials, particularly for the SLR program, are
       “paper pushers” and only sign-off to ensure paper work is in order. This
       statement along with other conversations with HR personnel, combined with
       OIG’s review of SLR and 3Rs agreements, has led us to conclude that HRD’s role
       was not substantive. We noted that the majority of SLR recipients receive the
       maximum $10,000 annually without a documented justification; this observation
       is consistent with a program whereby HRD’s role was administrative. Moreover,
       during the course of our audit, we observed no evidence that HRD provided
       guidance to managers on 3Rs amounts or lengths of service agreements.
       Individual managers made that determination, with HRD’s role again being more
       administrative and ensuring paper work was in order and a documented
       justification was included (except in the case of the $138,379 recruitment
       incentive, the highest in PBGC’s history). We believe that HRD providing a
       more substantive role within the 3Rs and SLR program could add value and
       provide additional controls to ensure incentives are warranted and justified.




                                       18 
 
 



Finding 3 – PBGC Did Not Have Assurance that Employees Receiving 3Rs and SLR
            Incentives Remained Eligible.

PBGC did not have assurance that employees who received 3Rs and SLR incentives continued to
meet the terms of their service agreements. This occurred because PBGC did not effectively
monitor 3Rs incentives and SLR agreements. As a result, PBGC could not ensure that employees
who received 3Rs and SLR remained eligible to receive the agreed-upon incentive.

For each of the 3Rs incentives, the Federal regulations require the agency "must terminate" the
incentives when the required performance rating is not met, the employee is demoted or
separated for cause, or otherwise fails to meet service agreement requirements. The agency "may
unilaterally terminate" an incentive based solely on management needs. Though Federal
regulations state that a service agreement is not required for retention incentives that are paid
bi-weekly, an agency must still review each determination to pay a retention incentive that
extends more than one-year at least annually to determine whether payment is still warranted.
Such a determination would not only include compliance with agreement requirements, but also
whether the conditions still existed to require the employee’s continued service. The regulation
requires the determination to be “certified” in writing. (5 CFR § 575.311(f)(1)).

PBGC awarded eight retention incentives totaling $214,324 with various continued eligibility
requirements – such as maintaining an acceptable performance rating and remaining employed
during the service agreement period. Of the eight retention incentives, three retention incentives
totaling $95,861 with service agreement periods over one year required an annual review and
were not reviewed.

An HRD employee told us that PBGC did not monitor 3Rs incentives to determine whether 1)
the employees continue to meet the terms and conditions of the service agreements, and 2) the
incentives continue to warrant payment. An HRD official initially told us that the employee’s
supervisor should monitor and ensure compliance with the terms and conditions of the service
agreement. We were later told it is a shared responsibility between HRD and the employee’s
supervisor. As suggested by the inconsistencies noted above, PBGC did not clearly define roles
and responsibilities for monitoring 3Rs service agreements. PBGC’s October 2013 3Rs
Directive clarifies that the Recruitment, Relocation and Retention Program Manager is
responsible for monitoring. PBGC reported that a review of 3Rs awardees records was
completed in 2014 and no exceptions were identified as a result. We commend PBGC on
initiating the review after we identified and reported this issue during our audit. A onetime
review is the first step and we look forward to receiving additional evidence that this control is
effectively operating to ensure employee eligibility and PBGC compliance with the CFR.

Unlike the 3Rs program, we found that HRD performs an annual re-certification for SLR
benefits that consists of verifying the employee's performance rating, ensuring there has been no
disciplinary action and the outstanding loan is in good standing. However, the rating designation
in the service agreement was not aligned with PBGC's performance rating levels. Therefore, it
was not clear if an employee continued to meet the terms and conditions of the agreement.



                                                19 
 
 


The service agreements state that during the service agreement period the employee must
maintain at least an “Excellent” performance rating or any pending or future loan payments must
be terminated immediately. However, the PBGC performance rating system did not have a
classification of "Excellent;" employees can receive the following ratings:

       5 = Outstanding;
       4 = Exceeds Expectations;
       3 = Meets Expectations;
       2 = Below Expectations; or
       1 = Unsatisfactory.

An employee received SLR benefits and had a rating of level 3, “Meets Expectations.” An
"Excellent" rating would seem to correlate to a rating above level 3, "Meets Expectations” –
likely, level 4, "Exceeds Expectations." According to the Federal regulations, an employee must
maintain an acceptable level of performance that is equivalent to level 3 (“Fully Successful” or
equivalent) or higher to remain eligible to receive SLR benefits. (5 CFR § 537.108(b)). PBGC’s
Intranet and Directive state an applicant must have a level 4, “Excellent” or higher performance
rating to be eligible for SLR benefits. The language in the service agreements was not aligned
with PBGC’s performance ratings, but it did specify "level 4" is required to retain the SLR
incentive. Thus, it appears the employee who received a “level 3” rating should not have
remained eligible to receive SLR benefits. PBGC provided documentation of annual reviews for
SLR; however, the reviews were not fully effective because the guidance used for assessing an
employee’s eligibility was misaligned. PBGC provided support that performance appraisals and
the SLR draft Directive are now aligned.
  RECOMMENDATION:

           6. In accordance with the CFR and OPM guidelines, conduct annual reviews of
              those receiving 3Rs incentives, document and validate whether conditions
              continue to warrant the award and the employee meets all eligibility requirements
              (OIG Control Number HRD-21).

              PBGC Response:
              HRD has incorporated and implemented an annual review process outlined in the
              current SOP for the 3R's Program. The SOP has been provided to the OIG.

              OIG Evaluation:

              This recommendation will be closed upon report issuance.


PBGC Correctly Calculated Retention Incentives

After completion of our fieldwork, we observed that PBGC interpreted OPM’s regulation for the
calculation of the maximum retention incentive amount (5 CFR § 575.309) differently than other
Federal agencies. In evaluating PBGC’s retention incentive calculation methodology, we had
reviewed a cabinet-level agency’s retention policy and consulted the Interior Business Center
                                               20 
 
 


(IBC16), the federal shared services center that PBGC OIG uses for human resources. Both
Federal agencies interpreted the CFR language “may not exceed 25% of an employee’s basic
pay” as establishing that 25% was the maximum retention incentive that could be paid, whether
paid for one year or over several years. Under this reading of the regulation, an agency has the
authority to award a 25% total maximum retention incentive and OPM can award up to
50%. That is, without regard to the length of the service agreement, an agency could not award a
retention incentive of more than 25% of the employee’s pay. PBGC had a different
understanding of the retention incentive regulation. It believed that an agency could pay the
maximum retention incentive (25%) each year over a multiyear service agreement.

Because of this significant legal interpretation, OIG sought written clarification from OPM in
July 2014. OPM’s Associate Director for Employee Services and Chief Human Capital Officer
confirmed that PBGC was correct in its interpretation of the methodology used to calculate
retention incentives. OPM provided a helpful example of calculating a retention incentive over a
2-year service agreement in which an employee receives 25% of basic pay each year. (See
Appendix J).

OPM’s response to our inquiry explained:

              The limitation in the law and regulations are for the retention incentive rate. The rate is
              expressed as a percentage. This means that an agency may not establish a retention
              incentive rate (percentage) that exceeds 25 percent, such as 26 percent, without OPM
              approval.

              The only limitation on the length of a service period established in a retention incentive
              service agreement is that the service period must begin on the first day of a pay period
              and end on the last day of a pay period. An agency may establish a service period that
              lasts multiple years.

              ….There is no maximum service period for a retention incentive.17
              ….For each retention incentive that is subject to a service agreement, the agency must
              make a determination at least annually whether the payment is still warranted and certify
              this determination in writing.18

Because of OIG’s inquiry, OPM told us they would contact the cabinet level agency and IBC
regarding the calculation of retention incentives. We appreciate the timely, thorough response
and clarification from OPM.
                                                            
16
  IBC is located within the Department of Interior and offers numerous services (Acquisition, Financial
Management, Human Resources, IT and Budget) to more than 150 government offices and agencies. 
17
  OPM noted that as a matter of agency policy, an agency could choose to limit retention service agreements to one
year.
18
  Written service agreements are not required if an agency pays a biweekly incentive provided the installments are
set at the incentive percentage rate established for the employee. Annual agency determination on whether the
payment is still warranted and a written certification of the decision is still required.


                                                               21 
 
    APPENDIX A




        22 
 
APPENDIX A – Scope and Methodology

Our objective was to assess whether PBGC’s administration of incentive awards related to
recruiting and retaining a qualified workforce complies with statutes, regulations, and the Office
of Personnel Management policies and procedures and determine if PBGC’s and controls around
these programs are in place and operating effectively. We performed fieldwork for this audit
from December 2011 through March 2013. To achieve our audit objective, the scope of our
audit included all incentives that were paid or in effect from January 1, 2010 through December
31, 2012; CY2010 through CY2012. We assessed data and documentation for the Recruitment,
Relocation, and Retention (3Rs) Program; the Federal Student Loan Repayment (SLR) Program;
and the Superior Qualifications and Special Needs Pay-Setting (Superior Qualifications)
authority.

Based on data HRD provided under the 3Rs Program, we identified a total population of 25 3Rs
incentives that were paid or in effect during CY2010 through CY 2012. We performed a 100%
review of the total population.

Based on data HRD provided under the SLR Program, we identified a total population of 65 SLR
benefits that were paid or in effect during CY2010 through CY2012. We sampled every third
employee listed on the spreadsheet provided by PBGC which resulted in 21 employees being
selected for review.

Based on data HRD provided under the Superior Qualifications authority, we identified 48
Superior Qualifications incentives that were paid or in effect during CY2010 through CY2012.
We conducted a judgmental sampling of the total population by selecting Superior Qualifications
incentives at steps 9 and 10, the two highest steps in grade. Our sampling method resulted in 28
employees being selected for review.

The sample may not be representative of the entire population of 3Rs, SLR and Superior
Qualifications. We requested, obtained and assessed all forms of documentation associated with
our sample of 3Rs, SLR and Superior Qualifications in order to evaluate the controls over how
PBGC administers the 3Rs, SLR and Superior Qualifications programs.

                          Sample Population
Incentive Type            Sample Size              Methodology
3Rs Program               25                       100% Review
SLR Program               21                       Random sampling; every third employee.
Superior Qualifications   28                       Judgment sampling; highest Steps 9 and 10
Total Incentives          74


OIG conducted interviews of HRD management and PBGC management to assess the process
for issuing and awarding 3Rs, SLR and Superior Qualifications incentives. We also reviewed
the Federal Workforce Flexibility Act of 2004 and Federal Employees Pay Comparability Act of
1990, as well as:
       Relevant sections of the Code of Federal Regulations (CFR) and the Office of Personnel
        Management (OPM) policies.
       Relevant audit reports by Government Accountability Office
       PBGC policies and procedures, including checklists and internal control documents.

We performed this audit at the PBGC Headquarters in Washington, D.C. from December 2011
through March 2013. We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards (GAGAS), July 2007. Those standards require that
we plan and perform this audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions, based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
 
    APPENDIX B




        23 
 
      ,,v~
PBGC
Protecting America•s Pensions
                                 Pension Benefit Guaranty Corporation
                                 1200 K Street, N.W., Washington, D.C. 20005-4026


    Office of the Director


                                                                              SEP 05 2014
         TO:                    Deborah Stover-Springer
                                Acting Inspector General

         FROM:                  Alice C. Maro~
                                Acting Director

         SUBJECT:               PBGC Response to OIG's Draft Incentives Audit Report Related to
                                Recruitment and Retention


         Thank you for the opportunity to respond to the official OIG draft report regarding
         PBGC's incentives and compensation flexibilities programs, which we deploy to recruit
         and retain a qualified workforce (AUD-2014-10/PA-12-86). During the course of the
         audit, we received helpful feedback on how to improve our processes and appreciate
         where our considerable efforts are reflected in the draft report. In particular, we
         appreciate the auditors' post-fieldwork effort to research and conclude that PBGC
         correctly calculated retention incentives within the limits set by OPM, an issue that was
         raised after the initial audit fieldwork concluded.

         Nonetheless, management has three overarching concerns: (1) the apparent confusion in
         the report between practices that raise legal/regulatory compliance issues as opposed to
         internal control and best practices issues; (2) the lack of full consideration of the evidence
         that management provided at the discussion draft stage of the audit; and (3) the staleness
         of the findings and recommendations.

         Compliance versus Best Practices

         The draft report appears to confuse legal and regulatory compliance with best practices
         for administering programs. The draft report (e.g., Finding 1) alleges that PBGC did not
         consistently award incentives in compliance with OPM regulations and policies in the
         operation of its incentives programs. However, OPM audited PBGC's HR programs in
         2010 and 2012, including these incentives programs, for a time period that covered this
         audit and found that PBGC's policies and practices were in compliance with OPM
         regulations and policies. The report adverts to one of two OPM audit reports we
         provided to OIG (see report at 3) but does not expressly acknowledge the positive results
         of the audits. Most disturbingly, the OIG report dismisses the OPM audit reports with the
         observation that the Generally Accepted Auditing Standards under which the OIG audit
         was conducted entail "a more rigorous examination and analysis than OPM's review."

                                                           1
(report at 3). While PBGC management is in no position to assess the quality of the two
audits against one another, we believe we are entitled to rely on OPM's interpretation of
its own regulations and policies in assessing those of PBGC, as OPM has been given the
statutory authority to issue and interpret federal personnel regulations. As the report
acknowledges, the one issue of regulatory interpretation that OIG actually took to OPM
resulted in OPM confirming that PBGC's interpretation was correct. But regulatory
compliance is only a floor; we are committed to improving our internal controls and
incorporating best practices into our programs. As the report notes, changes we have
                                                                               1
made since the commencement of this audit have moved us in this direction.

However, even in reporting internal control and documentation issues, the report lacks
balance. It leads with an isolated incident -- a singular noteworthy lack of documentation
for a recruitment incentive that occurred six years ago under a prior administration.
There is no evidence cited anywhere in the report that anything like that has happened
since, nor does one isolated instance support the finding that PBGC did not consistently
award incentives in compliance with regulations. As noted above, we appreciate the
feedback we received from OIG during the course of the audit that helped us improve our
internal controls and make our documentation more accessible. However, our movement
in the direction of best practices is a far cry from having had legal compliance issues.



Failure to Consider Evidence

When management was finally provided a discussion draft highlighting a purported lack
of documentation-again, more than two years after the start of the audit-management
provided extensive documentation across the board. For example, the evidence presented
demonstrated that, even under the pre-February 2012 law student hiring policy, we
complied with law and regulation in documenting qualifications and approvals for law
student hires at rates of pay above step 1 of the GS schedule. The pre-2012 policy did
not stipulate that all documentation needed to be in one place, which was a reason for the
change in the policy. However, the documents demonstrated that criteria for authorizing
a higher level of pay (such as law review experience or pension law experience) had been
satisfied for each law student hire, and that the appropriate level of authorization had
been obtained. Management assembled all the relevant documents (such as law school
transcripts and hiring official sign-offs) and provided them when we learned-at the
discussion draft report stage-that the documents were needed. Yet the final draft
completely ignores this evidence. The underlying issue here appears to be the need for
greater communication during the audit when the auditors believe they have not received
necessary evidence.

1
   For example, the 2013 Policy explicitly requires a finding that one requirement for awarding a retention
incentive be that the employee is likely to leave federal service, in accordance with OPM regulations. That
requirement was implicit in the former policy's requirements that an official requesting a retention
incentive address both other methods for retaining the employee and the harm that would be caused by their
leaving. Yet the draft report uses this one example as the evidence that PBGC policy did not comply with
OPM regulations.

                                                    2
Staleness of Findings and Recommendations

This audit began with an entrance conference on December 6, 2011. Management was
provided a discussion draft on March 27, 2014- more than two years after the entrance
conference. In that time frame, management continued to update PBGC policies and
procedures as we generally do, yet these updates went untested, despite the long course of
the audit. For example, in February of 2012, only two months into the audit, we
implemented a new process for hiring law clerks with superior qualifications, yet the
report issued more than two years later does not acknowledge the results of that
improvement. Similarly, PBGC issued a new Recruitment, Retention, and Relocation
incentives directive and supporting worksheets in October 2013, which directly address
the internal control issues identified in the report. Thus, major policy documents in this
report have been superseded by new documents and internal controls that have been
implemented for a reasonable period of time.

While we understand that there is always a period of time between the end of an audit
and the issuance of the final audit report, it is difficult to understand why this report
would note PBGC ' s proactive changes yet recommend that PBGC implement those very
changes. Because the findings and recommendations address practices that have not been
in effect for some time, they lack utility and create a misleading impression of the current
state of these important programs.

As a result of these overarching issues as well as the particular comments and concerns
related to the specific findings and recommendations noted in the attachment,
management respectfully asks for OIG's full consideration in closing the draft report' s
findings and recommendations, as all concerns have been addressed. We would anticipate
closure of the findings and recommendations with the issuance of the final report.
However, ifthere is any need for further discussion of these matters moving forward,
management will certainly work cooperatively with your office.


Attachment




                                             3
                                          Attachment A

          PBGC Response to OIG's Draft Report on Incentives and
                     Compensation Flexibility Programs
         Related to Recruiting and Retaining a Qualified Workforce
                       December 2011 - March 2013

General Observations

PBGC disagrees with the assertion contained within the title of the draft report, as our
incentives and compensation flexibilities program was generally administered with
consistency to recruit and retain a qualified workforce. The executive summary further
needs modification in that PBGC was overall in compliance with the Code of Federal
Regulations (CFR) and the Office of Personnel Management (OPM) policies. The
implication throughout the report that PBGC did not comply with Federal regulations and
OPM guidance gives the reader a false perception of PBGC's commitment and execution
of our Incentives Programs and pay flexibilities.

The report notes that OPM, the governing body for human capital, conducted its
evaluations of PBGC focusing on three implementation systems of the Human Capital
Assessment and Accountability Framework (HCAAF). The reader might also want to
know that OPM evaluated PBGC ' s incentive progran1s and superior qualifications in
2010 and 2012, reviewing PBGC ' s policies and procedures and evaluating records for a
selected sample of personnel action, and found that PBGC' s "HR programs and
operations adhered to merit principles, complied with laws and regulations, and were
generally effective."(2012 OPM cover - See Tab 11). OPM specifically found that PBGC
"generally used compensation and pay flexibilities appropriately" . Under 5 CFR
575.112, 212, and 312, when OPM finds that an agency is not paying incentives
consistent with the agency's incentive plan and the criteria established under 5 U.S.C. or
this subpart or otherwise determines that the agency is not using this authority selectively
and judiciously, OPM may-

        (1) Direct the agency to revoke or suspend the authority granted to any
        organizational component of the agency and, with respect to any category or
        categories of employees, require that the component obtain approval from the
        agency's headquarters level before paying an incentive to such employees; or

        (2) Revoke or suspend the authority granted to the agency under this subpart for
        all or any part of the agency and, with respect to any category or categories of
        employees, require that the agency obtain OPM's approval before paying an
        incentive to such employees.


1
 To fully document these responses, PBGC is providing a redacted version of the binder provided at the
discussion draft stage of the audit, for OIG ' s consideration. Tab references are to this binder.
Over the course of the OPM's 2008, 2010 and 2012 evaluations, PBGC has made
significant strides in strengthening our Human Capital Programs. Specifically, in 2010
and 2012, the use of PBGC's pay flexibilities (e.g., recruitment and relocation incentives
and superior qualifications and special needs pay setting) were found to have proper
documentation and justification for recruitment incentives, established policy on superior
qualifications and special needs pay setting authority, and a satisfactory superior
qualifications authority checklist used by HRD Staffing Specialists when assisting
managers in making superior qualifications determinations. This was evidenced per
OPM's letters, dated December 16, 2010 and October 3, 2012, transmitting the findings
regarding PBGC's Delegated Examining Unit (DEU).

OPM did recommend in the 2010 evaluation that PBGC include all pay determination
factors in the superior qualifications authority policy, which since has been updated and
implemented. Additionally, in the 2012 evaluation, OPM required that PBGC include all
required information in student loan repayment justifications and document each payment
to allow for sufficient reconstruction of files. PBGC has updated its current directives
and Standard Operating Procedures (SOPs) to ensure required documentation is included
and aligned with Federal regulations. The minor documentation issues OPM found did
not affect its conclusion that PBGC was in compliance with OPM regulations. These
documents have all been presented to the IG's office.

The report criticizes PBGC for having variances in incentive amounts and length of
service requirements in the Recruitment, Relocation, and Retention (3R's) Program while
also criticizing PBGC for having too similar incentive amounts and length of service
requirements in the Student Loan Repayment (SLRP) incentive program, outlined under a
broad description of the finding/issue, which appears contradictory and may mislead the
reader. While criticizing the similar lengths of service under the SLRP, the report fails to
mention that the minimum service period required is 3 years, which is found in many of
the agreements utilizing this regulatory requirement.

The report states that field work was performed December 2011 through March 2013,
however, subsequent requests for information relative to the "Incentives Audit" were
submitted to the Human Resources Department (HRD) on July 8, 2013, February 5,
2014, February 25, 2014, June 26, 2014, July 2, 2014, and July 17, 2014, with no
mention of the outcome of the additional requests or how it related to this audit.
Although it appears that field work continued, it does not appear to have resulted in
adverse findings. Although the draft report commends PBGC for improvements made
during the audit period, we are disappointed that the OIG chose to not select samples of
our new service agreements, worksheets, and supporting documentation, to assess the
overall effectiveness of the SLRP and 3R's Programs and Superior Qualifications pay
flexibility.

The following are PBGC's specific responses to the audit findings and recommendations
outlined in the audit report.




                                                                                           2
Finding 1-PBGC Did Not Consistently Award Incentives in Compliance with
Federal Regulations and Guidance. PBGC does not concur with this.finding. Based on
the responses below, PBGC respectfully requests OIG 's consideration in the closure of
the finding and recommendations.

PBGC awarded a large recruitment incentive without any documentation.

While PBGC agrees that this incentive was not properly documented, there are several
issues that require additional discussion. In 2008, PBGC awarded a total recruitment
incentive of $138,379, which amounted to 25% of the employee's annual rate of basic
pay paid out in biweekly installments over a 4-year period. CFR 575.109, (4)(b)(l),
states: Except as provided in paragraph (c) (OPM waiver) of this section, the total
amount of recruitment incentive payments paid to an employee in a service period may
not exceed 25 percent of the annual rate of basic pay of the employee at the beginning of
the service period multiplied by the number of years (including fractions of a year) in the
service period (not to exceed 4 years). The incentive amount chosen was in line with the
difference between federal and competing private sector salaries and within the
Director's authority to approve up to 25% of an employee's salary as outlined in 5 CFR.

The report correctly asserts that the position that gave rise to this recruitment incentive
was new to the Corporation. However, it further states the auditors' view of the position
involved "was not considered as ' difficult to fill'.

There is no regulatory requirement for awarding a recruitment incentive that a new
position be deemed difficult to fill. The factors that an agency applies when making a
determination is applicable to the specific position. 5 CFR 575.106(a)(l ), states: an
authorized agency official retains sole and exclusive discretion, subject only to OPM
review and oversight to determine when a position is likely to be difficult to fill and 5
CFR 575.106(b), states: factors for determining when a position is likely to be difficult to
fill - an agency must consider the factors as applicable to the case at hand.

Moreover, this new position was a classic case of one that is difficult for the Federal
government to fill, under the following criteria:

   •   Limited pool of qualified applicants (14%)
   •   Required extended announcement period - vacancy announcement was open
       March 27 - May 18, 2008, yielding a total of only 44 applicants, 20 of which
       were not minimally qualified, 18 were minimally qualified, and 6 were
       determined to be best qualified.
   •   Competing Private Sector salary far exceeded federal government salary - the
       median salary for top investment executives in the private sector is $258,073
       (www.bls.gov/oco and salary.com).

HRD acknowledges that there was no supporting documentation provided by the Director
of PBGC for this incentive or a signed service agreement. That being said, 1) this was an
isolated incident that occurred in 2008; 2) there has not been a subsequent situation; 3)

                                                                                           3
the employee received bi-weekly installments, not a lump sum; and, 4) the individual
hired has continued employment with PBGC--in the same position for which he/she was
hired--even after the incentive payments ended. The recruitment tool was clearly
deployed successfully and met the intent of the regulation.

The report's conclusion states that "circumvention of the agency's internal control
structure is an important issue that PBGC must address and avoid in the future. . . . The
circumvention of internal control as demonstrated by this incentive could lead to
fraudulent activity if a single person within the Corporation is permitted to direct and
award incentives while bypassing Federal oversight and accountability requirements." It
is clear from the report itself that every incentive over the past 6 years was documented
and signed off on by appropriate officials. With six years of proper documentation and
approval after one isolated incident, PBGC believes the finding does not reflect current
practice. (See recommendation #1)

PBGC's policy omitted some mandatory requirements for 3R's incentives.

The report states that PBGC policy omits "the employee would be likely to leave the
Federal service in the absence of the retention incentive."

We disagree. The 2005 3R's policy contained all the required provisions outlined in 5
CFR as well as applicable references. The policy required hiring officials to address
various factors, to include: the extent to which the employee's departure would affect the
agency's ability to carry out an activity, perform a function, or complete a project the
agency deems essential to the mission. (See Tab 2, section 5(2)(f)), which would aid the
authorizing official in determining that the employee would be likely to leave federal
service. While the "likely to leave Federal service" was not explicit. That requirement
was implicit in the former policy's requirements that an official requesting a retention
incentive address both other methods for retaining the employee and the harm that would
be caused by their leaving. Yet the draft report uses this one example as the evidence that
PBGC policy did not comply with OPM regulations. Moreover, the 2013 Policy
explicitly requires a finding that one requirement for awarding a retention incentive be
that the employee is likely to leave federal service, in accordance with OPM regulations.

PBGC consistently issued payments in accordance with the regulation by meeting the
minimum standards for authorization as outlined in the 2008, 5 CFR 575.306(b), which
also states an authorized agency official retains sole and exclusive discretion to determine
when the employee would be likely to leave the federal service in absence of a retention
incentive (See 5 CFR 575.306 (a) (1)). The report does not elaborate on the referenced
"other missing elements" identified during the scope of the audit, so we are unable to
comment or provide specifics on what is meant by other "missing elements."

PBGC's current 3R's Directive, dated 10/22/13 (Tab 3), specifically and explicitly added
the verbiage "likely to leave Federal service" under section 9.




                                                                                          4
3R's incentive amounts and lengths of service agreements lacked support to
distinguish between incentives awarded.

We disagree. PBGC' s current policies outline: designations of authorizing officials,
eligibility requirements, suggested criteria for determining the amount of the incentive
and length of service period, required supporting documentation and requirements for
service agreements.

PBGC clearly distinguished the amounts and the lengths of service in the agreements
based on justifications provided by the requesting managers for the 3R's incentives.
While the header for this section identified the 3R' s, the subsequent text discussed 3R's
and SLRP. We disagree that we have not developed adequate written plans nor issued
adequate guidance. There is no regulatory requirement that there be a comparison
between the 3R incentives awarded. Every situation is not the same nor should it be
treated the same. The text in this section of the report cites regulatory criteria; it does not
identify any instance where the incentive authorized lacked adequate justification.

Variances in the requested incentive amounts and service agreement periods for retention
incentives were solely based on the operational needs of the requesting department, the
complexity of the position, the grade level, contributions to mission critical initiatives,
and the experience and competencies of employees that met the eligibility criteria to
receive an incentive. A review of the retention incentives show the different
circumstances that offices and employees faced such as the maturity of the programs, the
depth of the existing talent pool and the unique skills and experience of the employee.
This cannot be reduced to formula, and OPM wisely has no such requirement.

While the report criticizes the variances in incentive amounts and lengths of service, the
program ' s intent is to meet the operational needs of the organization, not to have a cookie
cutter approach that limits the flexibilities of management. The report also states that
PBGC policy omitted "some" mandatory requirements, however the report does not
identify any other omission beyond the "likely to leave Federal service" language.

As a best practice, to assist managers in their analysis, PBGC proactively established
recommended incentive amounts and service periods by grade level as evidenced in the
published 3R' s Directive, dated October 22, 2013 , which requires requesting officials to
describe various factors which support their requests for consideration by HRD.

PBGC also disagrees with the assertion that we did not provide guidance to managers/
supervisors on the 3R' s Program or have an adequate written plan. We believe our 3R' s
policy, our worksheets, one-on-one consultations, and training are adequate.

SLR reimbursement amounts lacked support to distinguish between benefits
awarded.

We disagree. There is no regulatory requirement to "distinguish between benefits
awarded." 5 CFR 537.106(b), states:


                                                                                              5
        In determining the amount of student loan repayment benefits to approve, an
        agency must consider the employee's (or job candidate's) value to the agency and
        how far in advance the agency is permitted to commit funds. If an agency decides
        to make additional student loan repayment benefits contingent on budget levels or
        other factors, it must address these contingent benefits in the written service
        agreement as described in §537.107(a).

As outlined in 5 CFR 537.106(2), PBGC issued SLRP payments in accordance with the
regulation and did not exceed the maximum disbursement of $60,000. PBGC also
consistently applies a service agreement period of 4 years (Non Bargaining Unit) and 3
years (Bargaining Unit) for up to the first $40,000 and an additional 2 years for up to an
additional $20,000 in benefits. The current draft SLRP Directive directly coincides with
the current regulations.

The report states: "We found that in 14 out of 21 instances (67%) employees received
SLR benefits of $40,000 or higher." To get to a count of 14, one would have to include
three employees who received the benefit twice; however, this would affect the total
number of service agreements referenced, raising the count to 24.

A large percentage of PBGC's SLRP recipients are attorneys. The average law student
graduate loan balance is $140,616 2 . Therefore, based on this data, having the benefit at
the maximum rate is reasonable to attract and retain highly qualified attorneys.

Page 10 of the Official Draft, states that one (1) senior official stated that SLR benefits
are awarded based on personal knowledge of an employee's finances. The manager
further explained that the decision to offer or approve a SLR benefit is based on the
employee's family wealth and perceived ability to repay the loan. This statement is from
one (1) official and is his/her personal opinion, not an official agency position.
Employees do not provide financials to the Human Resources Department as support for
receiving SLRP benefits, so it is not sanctioned part of the approval process.

PBGC Superior Qualifications were awarded without complete information and
required documentation.

This sub-heading is unrelated to Finding 1, which is restricted to Incentives. This is an
important distinction because Superior Qualifications is a pay flexibility that affects the
employee' s base pay and continues throughout the lifetime of the employee's federal
career. Incentives are temporary.

PBGC agrees that there were no written determinations for the 9 law school students·
however, PBGC was able to provide source documentation that showed the nine law '

2
 (Delisle, Jason. "The State of Graduate Student Borrowing." The Graduate Student Debt Review: (2014):
11. New America Education Policy Program. Web.
<http://newamerica.net/sites/newamerica.net/files/policydocs/GradStudentDebtReview-Delisle-Final.pdf)


                                                                                                         6
school students identified in the sample met the minimum criteria outlined in the 2000
MOU between OGC and HRD to include a resume, academic transcript, and work
history. PBGC provided this documentation (See Tab 12) to the IG' s office in response
to the draft report.

Pursuant to the February 9, 2012, MOU between OCC and OGC, PBGC has documented
superior qualifications for all law school graduates. The process for the legal interns has
been in effect since February 2012, before the end of the audit period; however, the new
process was not tested by the OIG auditors.

Since 2008, PBGC has documented superior qualifications for all other candidates as
evidenced by the 2010 and 2012 OPM audits. This documentation included a written
justification from the hiring manager that highlighted a candidate' s relative experience,
competencies, and/or education; a review and approval by the respective department
director, a Job Offer Checklist for Superior Qualifications/ Special Needs Pay Setting
prepared by the HRD staffing specialist; and the review and approval delegated to
PBGC ' s Delegated Examining Chief. This pay setting authority has been awarded
consistently and in compliance with Federal regulations.

PBGC has consistently documented the high or unique qualifications or special needs of
the agency for every employee who has been hired under the Superior Qualifications
authority since.February 2012.

       Recommendation - PBGC does not concur with recommendations 1-3 and
respectfully requests that they be closed.

1.  In accordance with the CFR, when offering a recruitment incentive, obtain required
documentation and written approvals to support the determination to pay the incentive.

P BGC has established controls and obtains required documentation and approvals prior
to issuance ofrecruitment incentives as outlined in the determination worksheet,
Attachment A of the 3R 's Directive and all applicable regulations. In an ongoing effort
to improve our programs, we have revised and updated our tools and processes. The fact
that there has been no similar re-occurrence of the incident from six years ago should
validate that the proper controls are in place, and that the one instance is not a
representaLive sample.

2.   In accordance with the CFR and OPM policy, establish written requirements for
determining proposed incentive rates for SLR benefit.

PBGC is in compliance with both the CFR and OPMpolicy. Notably, there is no
regulatory requirement for an agency to establish requirements for determining proposed
SLRP amounts. However, to support best practices, moving forward the draft SLRP
Directive provides guidance for supervisors to consider when determining incentive
amounts.



                                                                                             7
3. Periodically provide information to PBGC managers on 3Rs incent~ves and SL~
including the procedures for nomination, writing justifications, and reqmred supportmg
documentation.

HRD already provides guidance and information to managers:
  • Managers/supervisor informational sessions on 3R 's on a recurring and
      requested basis, outlined in the HRD ala carte training menu
  • 3R 's manager/supervisor presentations (l.unch and learn session)
  • 3R 's manager/supervisor fact sheets
  • 3R 'sand SLRP one-on-one consultations as requested by the manager/supervisor
  • Advertisement ofSLRP via Captiva informational screens
  • SLRP informational emails (Corporate-wide)

Finding 2 - Written Service Agreements Were Inconsistent and Often Lacked
Required Information. PBGC does not concur with this finding. Based on the below
responses, PBGC requests OJG's consideration in the closure of the finding and
recommendations.

Written service agreements did not have standard language and customary
provisions.

PBGC' s 3R's and SLRP service agreements contain all of the required regulatory terms
and conditions. While SLRP service agreements have changed over the years, they have
met regulatory requirements and have been consistent within specific iterations. The
audit report does not identify what "customary provisions" were not included in the
service agreements, so PBGC is unable to comment on this assertion.

Of the 21 SLRP service agreements, in which the IG found discrepancies, we disagree
with the IG's conclusions. In our review of the 21 SLRP service agreements audited, we
found the following:

    •   Six SLRP service agreements required employees to reimburse PBGC if they
        separated from PBGC to work for another Federal agency, or outside the federal
        government;
    •   Eleven SLRP service agreements did not require PBGC employees to reimburse
        PBGC if they separated from PBGC to work for another agency;
   •    Four SLRP service agreements required employees to reimburse PBGC if they
        separated from Federal service. (All four agreements were from 2007.)

These variances are not discrepancies, and all service agreements met regulatory
requirements. The differences correlate to what policies were in effect at the time and
whether or not the employee was bargaining unit or non-bargaining unit, with the
exception of three agreements. PBGC acknowledges that these three agreements did not
comply with the governing PBGC policies; however, they were in regulatory compliance.



                                                                                         8
The report identified that there were three retention service agreements that ~id ~ot
include the required provision for notifying the employee about annually rev1ewmg the
determination to pay the retention incentive. This is not a requirement in the federal
regulations for a retention incentive for an employee likely to leave the Federal service.
It is a requirement for an employee who is likely to leave for a different position in the
Federal service - inapplicable here.

The report also identified 16 recruitment service agreements that did not include an
allegedly required provision for when the agency may terminate a service agreement.
This is an incorrect interpretation of the cited regulation. If an agency wants to terminate
an agreement for conditions above the regulatory required conditions for termination, the
agency must include any additional conditions in the service agreement for which the
agency may terminate the agreement. The agency is not required to have additional
conditions, but they have the option to include additional conditions. For example, if the
employee is detailed to another position, the agency can include language in the
agreement that states if an employee is detailed to another position, the agreement may be
terminated. PBGC is not aware of any instances wherein a service agreement was
terminated for a condition not identified in the service agreement, nor does the audit
report reference such a situation in which the cited regulation would be applicable.
Therefore, this finding is not accurate and should be removed.

PBGC approval and oversight focused on administrative processing not adequate
documentation.

PBGC does not agree. The HR Director's oversight of the process aimed at ensuring that
written determinations adequately reflect consider of all relevant/required factors. We
would like to point out that the report notes that the authorizing official is responsible for
determining whether the incentive may legally be made. PBGC disagrees with the
characterization of the program that oversight is focused on administrative processing.
One can argue semantics over verbiage, but we believe the report misrepresents the
interpretation of ensuring the paperwork is in order when it is how we determine the legal
requirements have been met.

       Recommendation- PBGC disagrees with recommendations 4-5 and respect{ullv
requests that they be closed.

4.    Improve controls to align SLR and 3Rs service agreements more closely to the CFR
and OPM policies, by applying consistent contract language and provisions for similar
types of agreements.

 With the exception of three service agreements noted above, the agreements for both
programs are consistent in language and contain all the required regulatory provisions
for each program as outlined in the CFR and OPM policy. While language varied
depending on the iteration, the service agreement language used was adequate and in
compliance with regulations.



                                                                                             9
5. Implement controls to make HRD's review and approval process for 3Rs and SLR
incentives more substantive.

The current review and approval process is quite substantive.

HRD ·s SOP has these controls, and management provided the SOP to the OIG.

As a best practice, the draft SLRP Directive outlines a new approval process which
clearly defines the approval authority for funding thresholds (see Section 8, b(J)).

Finding 3 - PBGC Did Not Have Assurance that Employees Receiving 3Rs and SLR
Incentives Remained Eligible. PBGC does not concur with this finding. Based on the
below responses, PBGC respectfully requests OIG 's consideration in the closure of the
finding and recommendation.

PBGC did have assurance that employees receiving SLRP benefits remained eligible, and
the program was effectively monitored during the annual re-certification process.

There is a government-wide standard for determining equivalence for the various
performance rating levels as outlined in 5 CFR 430.208(d). Therefore, we disagree that
the reviews were not fully effective because the performance rating level language
differed between the Non-Bargaining Unit (NBU) SLRP policy and PBGC's performance
management program. The example of an employee receiving a level 3 and maintaining
eligibility is one isolated instance, not an oversight/program deficiency. The current
forms and service agreements speak to the 5-tier performance system currently in place.
Also, the draft SLRP Directive includes the current 5-tier performance system rating
language as well as all corresponding forms and SOP.

While there was no annual review outlined for the 3R's, none of the recipients received a
rating below "fully successful or equivalent," nor had any disciplinary or adverse actions
been brought against them during their receipt of incentives.

The 3R' s annual review process is now clearly defined in HRD's current SOP, also
provided to OIG.

       Recommendation - PBGC does not concur with recommendation 6 and
respectfully requests OIG's consideration that it be closed.

6.    In accordance with the CFR and OPM guidelines conduct annual reviews of those
receiving 3Rs incentives, document and validate whether conditions continue to warrant
the award and the employee meets all eligibility requirements.

HRD has incorporated and implemented an annual review process outlined in the current
SOP for the 3R 's Program. The SOP has provided to the OIG.




                                                                                        10
PBGC Correctly Calculated Retention Incentives

PBGC appreciates the acknowledgement that, after consultation with OPM, OIG
determined that PBGC correctly calculated retention incentives. However, the report
states that OIG reviewed a cabinet-level agency's retention policy and that the Interior
Business Center (IBC) was consulted as a benchmark for retention incentive calculation
methodologies. The report further states that IBC services more than 150 governmental
offices and agencies. However, IBC does not provide human resource operational
services to over 150 governmental offices and agencies, rather only 13. The implication
that over 150 governmental offices and agencies use a different methodology to calculate
retention incentives than PBGC is misleading. The remaining governmental offices and
agencies utilize IBC for systems services only.




                                                                                    11
    APPENDIX C




        24 
 
                          Criteria on 3Rs, SLR, and Superior Qualifications
Recruitment, Relocation, and Retention Program
According to the Code of Federal Regulations (CFR), an agency is permitted to pay 3Rs
incentives if certain conditions are met.

    •    Recruitment incentives are used to attract new employees (or former employees who had
         a break in service) for positions that the agency determines are difficult-to-fill in the
         absence of the recruitment incentive. (5 CFR § 575.101).
    •    Relocation incentives are used when, in advance of the recruitment, the agency
         determines the position is likely to be difficult-to-fill in the absence of the incentive and
         the individual selected is a current Federal employee who must relocate to accept a
         position in a different geographic area. 1 (5 CFR § 575.201).
    •    Retention incentives are used to retain a current employee when the agency determines it
         is essential to retain the employee because of the employee’s high or unique
         qualifications or the agency’s special need for the employee’s services and the employee
         would be likely to leave Federal service in the absence of the incentive. (5 CFR §
         575.301).

Current employees are eligible for retention incentives and current federal employees are eligible
for relocation incentives with some exclusions.2 Federal employees must have a performance
rating of “Fully Successful” or equivalent at the time of award and during the service agreement
period. Agencies may pay 3Rs incentives up to 25 percent of the employee’s annual salary; with
OPM approval, an agency may pay up to 50% of the employee’s annual salary.

In return, the employee must sign a service agreement to remain employed with the agency for a
required period not to exceed four years. An authorized agency official determines the length of
service agreement period for retention incentives. A written service agreement is not required for
retention incentives that are paid biweekly and there is no service period requirement. An agency
must terminate a 3Rs incentive service agreement if an employee does not fulfill the terms and
conditions of the service agreement.

                     For the incentives within our scope, PBGC recruitment incentives
                         ranged from $5,000 to $138,379 per employee; retention
                         incentives ranged from $3,798 to $30,449 per employee;
                            and PBGC paid one relocation incentive of $5,000.


1
  Relocation benefits differs from relocation incentives, in that relocation benefits are the costs associated with
locating a new hire or an existing Federal employee who accepts a federal job. Under Federal travel regulations, an
agency can pay relocation benefits when a position is advertised that relocation expenses will be paid.
2
 An agency may not pay a 3Rs incentive to a Presidential appointee, a senior executive who is in a non-career
appointee, employees in a position excepted from the competitive civil service because of their confidential, policy-
determining, policy-making, or policy-advocating nature or a designated or expected agency head.
Student Loan Repayment Program

Federal regulations permit an agency to establish a SLR Program that repays certain types of
federally-made, insured, or guaranteed student loans as an incentive to recruit or retain highly
qualified personnel. Any employee is eligible, excluding employees occupying a position that is
excepted from the competitive civil service because of their confidential, policy-determining,
policy-making, or policy-advocating nature. (5 CFR §§ 537.101 and 537.104(b)). When
authorizing a SLR benefit, Federal regulations state that an agency must make written
determinations.

    • To offer a SLR when recruiting, the agency must determine it would be difficult to fill
      the position with a highly qualified individual in the absence of the SLR benefit.
    • To offer a SLR benefit to a current Federal employee, the agency must determine the
      employee would be likely to leave Federal service and it is essential to retain the
      employee because of the employee’s unique qualifications or the special need of the
      agency. (5 CFR§ 537.105(a)(2)(ii)).

 An employee must maintain an acceptable level of performance that is equivalent to a level 3
 (“Fully Successful” or equivalent) or higher to be eligible for continued SLR benefits. (5 CFR
 § 537.108(b)). Payments are made to a loan holder up to $10,000 for an employee in a calendar
year; and at an aggregate maximum of $60,000 for any one employee. In return, the employee
must sign a service agreement to remain employed with the agency for a period of at least three
years. (5 CFR §§ 537.106 and 537.107(a)).


                           For the Student Loan repayments within our
                              scope, PBGC incentives ranged from
                                 $6,541 to $60,000 per employee.



Superior Qualifications and Special Needs Pay-Setting authority

In accordance with the Federal regulations, an agency can use the Superior Qualifications
authority to pay above the default of step one of a pay grade of the General Schedule when
recruiting non-Federal candidates who possess unusually high or specialized qualifications or
who possess a particular combination of education and experience that meets a special need of
the agency. The General Schedule has 15 grades; the lowest grade is a GS-1 and the highest
grade is a GS-15. Each grade has 10 step rates. A position is posted and generally offered at the
Step 1 rate, per 5 CFR 531.211(a). Section 531.212(b), (c) of 5 CFR establishes an exception for
an agency to set pay above the minimum rate with certain factors an agency is required to
address, such as the job candidate's existing salary, significant disparities between Federal and
non-Federal salaries, and existing labor conditions, when determining the step to set the
individual’s pay. There is no service agreement requirement.

                    For the Superior Qualifications within our scope, PBGC paid
                    28 Superior Qualifications at the step 9 and step 10 salaries.
Congress authorized compensation flexibilities, such as the 3Rs, SLR, and the Superior
Qualifications authority; they are valuable incentive tools used to address human capital needs to
build and maintain a high-performing workforce with essential skills and competencies.
Agencies are to establish programs that apply mandatory incentive requirements, define criteria
for determining incentive amounts and length of service periods. Agencies must also, assign
responsibilities, ensure appropriate written service agreements are in place, and provide for on-
going review to certify continued eligibility. Our audit identified instances where PBGC did not
award compensation flexibilities in compliance with the statutory and regulatory requirements.
For 3Rs incentives, OPM may revoke or suspend any agency's authority and require OPM
approval to pay incentives if the agency does not comply with requirements. 3 Improved
management controls, such as clear guidance and adequate oversight are needed to provide
reasonable assurance that incentives are awarded in compliance with the Federal regulations and
OPM.




3
    5 CFR 575.112(b) – (2); 5 CFR 575.212(b) – (2); 5 CFR 575.312(b) – (2).
    APPENDIX D




        25 
 
                                                                                                                  Print Form



                         Recruitment Incentive Request and
                             Determination Worksheet

Instructions: Complete parts A, B, C, and D of this form and submit it to the Recruitment, Relocation &
Retention Program Coordinator for approval.

A. General Information

    Selectee’s Name: ________________________________                 Department/Division: ______________

    Position Title, Series, and Grade: ______________________________________________________

    Vacancy Announcement Number: _____________________________________________________

    Number of Well-qualified Candidates on the Selection Certificate (s): ________________________

B. Justification

    1. Briefly describe in an attachment to the worksheet, why this position has been difficult to fill
       and the high or unique qualifications the selectee possesses.

    2. What is the selectee’s current or former annual salary (Including commission, differentials, and
       other incentives)? You must attach supporting documentation.

        $ ___________________

    3. Has the selectee been offered relocation expenses?                        Yes          No

    4. Has the selectee been offered superior qualifications?               Yes               No

        If yes, what is the grade/step and salary?       Grade/Step: ________               Salary: $ _________

C. Proposed Amount and Factor Ratings

    1. Proposed recruitment incentive amount (whole numbers):                       $ ____________

        Frequency of Payment:           Lump-Sum                 Bi-Weekly

        Length of Service Agreement:         1 year         2 years              3 years   Other: __________

    2. Factors Used to Determine Amount of Incentive

        a) Recruitment/retention success:              Good               Limited          Poor

        b) Turnover Rate:             Few/Seldom            Some/Moderate                  Significant/High

        c) Labor Market:              Good            Limited             Poor

        d) Value of Qualifications:          Good               Limited            Poor
                          Recruitment Incentive Request and
                              Determination Worksheet

D. Requesting Office Approval

    Requesting Official (print): _____________________________________

    Signature: ________________________________                Date: __________________

    Department Director (print): ___________________________________

    Signature: ________________________________                Date: __________________


                                  THIS SECTION IS FOR HRD USE ONLY

E. Eligibility Review (Staffing and Classification Division)

        The employee is eligible for the proposed incentive.
        The employee is not eligible for the proposed incentive. (Memorandum of review is attached.)

    Staffing Specialist Signature: ________________________________         Date: _____________

    Manger, SCD Signature: ___________________________________             Date: _____________

F. Certifications (3R Program Manager)

    1. Policy Review

             This request package meets the regulatory and/or agency guidelines.
             This request package does not meet the regulatory and/or agency guidelines.

    2. Funding Review

             Sufficient funds are available.
             Sufficient funds are not available.

    Signature: ________________________________                Date: __________________

G. Approval/Disapproval

    HRD Director (10% or less):

             The proposed incentive is approved.
             The proposed incentive is modified as: ________________________________________
             The proposed incentive is disapproved (memorandum of review is attached).
                    Recruitment Incentive Request and
                        Determination Worksheet

Signature: ________________________________          Date: __________________


PBGC Director (10% or higher):

        The proposed incentive is approved.
        The proposed incentive is modified as: ________________________________________
        The proposed incentive is disapproved (memorandum of review is attached).


Signature: ________________________________          Date: __________________
                                                                                                                  Print Form


                           Relocation Incentive Request and
                              Determination Worksheet

Instructions: Complete parts A, B, C, and D of this form and submit it to the Recruitment, Relocation &
Retention Program Coordinator for approval.

A. General Information

    Selectee’s Name: ________________________________                 Department/Division: ______________

    Position Title, Series, and Grade: ______________________________________________________

    Vacancy Announcement Number: _____________________________________________________

    Number of Well-qualified Candidates on the Selection Certificate (s): ________________________

B. Justification

    1. Briefly describe in an attachment to the worksheet, why this position has been difficult to fill
       and the high or unique qualifications the selectee possesses.

    2. What is the selectee’s current or former annual salary (Including commission, differentials, and
       other incentives)? You must attach supporting documentation.

        $ ___________________

    3. Has the selectee been offered relocation expenses?                        Yes          No

    4. Has the selectee been offered superior qualifications?               Yes               No

        If yes, what is the grade/step and salary?       Grade/Step: ________               Salary: $ _________

C. Proposed Amount and Factor Ratings

    1. Proposed relocatoin incentive amount (whole numbers):                        $ ____________

        Frequency of Payment:           Lump-Sum                 Bi-Weekly

        Length of Service Agreement:         1 year         2 years              3 years   Other: __________

    2. Factors Used to Determine Amount of Incentive

        a) Recruitment/retention success:              Good               Limited          Poor

        b) Turnover Rate:             Few/Seldom            Some/Moderate                  Significant/High

        c) Labor Market:              Good            Limited             Poor

        d) Value of Qualifications:          Good               Limited            Poor
                           Relocation Incentive Request and
                              Determination Worksheet

D. Requesting Office Approval

    Requesting Official (print): _____________________________________

    Signature: ________________________________                Date: __________________

    Department Director (print): ___________________________________

    Signature: ________________________________                Date: __________________


                                  THIS SECTION IS FOR HRD USE ONLY

E. Eligibility Review (Staffing and Classification Division)

        The employee is eligible for the proposed incentive.
        The employee is not eligible for the proposed incentive. (Memorandum of review is attached.)

    Staffing Specialist Signature: ________________________________         Date: _____________

    Manger, SCD Signature: ___________________________________             Date: _____________

F. Certifications (3R Program Manager)

    1. Policy Review

             This request package meets the regulatory and/or agency guidelines.
             This request package does not meet the regulatory and/or agency guidelines.

    2. Funding Review

             Sufficient funds are available.
             Sufficient funds are not available.

    Signature: ________________________________                Date: __________________

G. Approval/Disapproval

    HRD Director (10% or less):

             The proposed incentive is approved.
             The proposed incentive is modified as: ________________________________________
             The proposed incentive is disapproved (memorandum of review is attached).
                     Relocation Incentive Request and
                        Determination Worksheet

Signature: ________________________________          Date: __________________


PBGC Director (10% or higher):

        The proposed incentive is approved.
        The proposed incentive is modified as: ________________________________________
        The proposed incentive is disapproved (memorandum of review is attached).


Signature: ________________________________          Date: __________________
                                                                                                               Print Form


                              Retention Incentive Request and
                                 Determination Worksheet

Instructions: Complete parts A, B, and C of this form and submit it to the Recruitment, Relocation &
Retention Program Coordinator for approval.

A. General Information

    Employee Name:       _____________________________                Department/Division: ______________

    Position Title, Series, and Grade:   ____________________________________________________

B. Justification

    Briefly describe in an attachment to the worksheet, the high or unique qualifications this employee
    possesses.

C. Proposed Amount and Factor Ratings

    1. Proposed retention incentive amount (percent):            ______ %

        Frequency of Payment:            Lump-Sum                Bi-Weekly

        Length of Service Agreement:         1 year         2 years              3 years   Other: __________

    2. Factors Used to Determine Amount of Incentive

        a) Recruitment/retention success:              Good               Limited          Poor

        b) Turnover Rate:             Few/Seldom            Some/Moderate                  Significant/High

        c) Labor Market:              Good            Limited             Poor

        d) Value of Qualifications:          Good               Limited            Poor

D. Requesting Office Approval

    Requesting Official (print): _____________________________________

    Signature: ________________________________                       Date: __________________

    Department Director (print): ___________________________________

    Signature: ________________________________                       Date: __________________
                            Retention Incentive Request and
                               Determination Worksheet

                                 THIS SECTION IS FOR HRD USE ONLY

E. Certifications (3R Program Manager)

   1. Policy Review:

            This request package meets the regulatory and/or agency guidelines.
            This request package does not meet the regulatory and/or agency guidelines.

   2. Funding Review:

            Sufficient funds are available.
            Sufficient funds are not available.


   Signature: ________________________________               Date: __________________

F. Approval/Disapproval

   HRD Director (10% or less):

            The proposed incentive is approved.
            The proposed incentive is modified as: ________________________________________
            The proposed incentive is disapproved (memorandum of review is attached).


   Signature: ________________________________               Date: __________________


   PBGC Director (10% or higher):

            The proposed incentive is approved.
            The proposed incentive is modified as: ________________________________________
            The proposed incentive is disapproved (memorandum of review is attached).


   Signature: ________________________________               Date: __________________
                                     May 31, 2005


TO:           PBGC Executive Staff

FROM:         John Seal
              Chief Management and Human Capital Officer

SUBJECT:      Interim Policy, Pension Benefit Guaranty Corporation (PBGC)
              Recruitment, Relocation, and Retention Incentive Policy and Plan.

Pursuant to interim changes to 5 C.F.R. § 530 and 5 C.F.R. § 575, as posted in the
Federal Register, volume 70, No. 92, pages 25732-25747, this policy and plan replaces
the Interim PBGC Recruitment Bonus Policy, April 4, 2005, and the Interim PBGC
Relocation Bonus Policy, April 4, 2005. This policy adds Retention Incentives for both
bargaining unit and non-bargaining unit positions and employees; and allows Relocation
Incentives for bargaining unit positions.

1. Policy

   a. PBGC may authorize payment of: 1) a recruitment incentive to a newly appointed
      employee, defined at 5 C.F.R. § 575.103; 2) a relocation incentive to an individual
      in the Federal civil service, as defined at 5 C.F.R. § 575.203; or 3) a retention
      incentive to an individual in the Federal Civil Service, as defined at 5 C.F.R. §
      575.303, when, but for payment of the incentive, the PBGC would have difficulty
      filling the position. The determination to pay an incentive is made on a case-by-
      case basis using predetermined criteria and the authority is exercised at the sole
      and exclusive discretion of the approving official, subject only to OPM oversight.
      When making a timely offer is important, a designated official or recruiter may
      initiate negotiations with a prospective employee based upon pre-approved
      criteria; however, the determination that the prospective employee meets the set
      criteria still must be justified on a case-by-case basis and the official offer shall
      always come from the Human Resources Department (HRD).

   b. The criteria for determining the amount of an incentive shall be based on
      employment trends and labor market factors, to include consideration of typical
      salaries for similar occupations in the private sector. Payment of an incentive is
      contingent upon the execution of a written service agreement to remain a PBGC
      employee for a specific period of time (minimum of 12 months) 5 C.F.R. § 575,
      except where retention incentive situations do not require a written agreement as
      cited at 5 C.F.R. § 575.310
2. Scope

   a. This policy covers: 1) the payment of a recruitment incentive by PBGC to an
      employee who is “newly appointed” to the Federal Government including an
      employee reappointed with a 90 day break in service; 2) the payment of a
      relocation incentive by PBGC to an individual in the civil service (defined at 5
      C.F.R. § 575.203) who is relocated to a different geographic area without a break
      in service, upon appointment to a position in the PBGC; or a current civil service
      employee, whose duty station is changed permanently or temporarily to a
      different geographic area; and 3) the payment of a retention incentive to an
      employee who is currently employed by the PBGC.

   b. This policy does not extend to the Executive Director; a position excepted from
      the competitive service by reason of its confidential, policy-determining, policy-
      making, or policy-advocating character; or a position in which the employee is
      expected to receive an appointment as PBGC's Executive Director.

3. Approval

   The Executive Director delegates authority to the HRD Director to review and
   approve a recruitment, relocation, or retention incentive in an amount not to exceed
   10% of the employee’s basic pay and retains authority to review and approve
   recruitment, relocation, or retention incentives over 10% of the employee’s basic pay.
   The approving official will:

   a. approve an incentive for any eligible applicant or employee of the PBGC, on a
      case-by-case basis;

   b. approve target groups of similar positions for recruitment incentives that have
      been difficult to fill in the past and may be difficult to fill in the future and;

   c. approve groups of similar positions for appropriate criteria and amounts in
      advance to enable a recruiter or other official, where applicable, to make timely
      offers of incentives without further review or approval, on a case-by-case basis.

4. Incentive Funding

   Department Directors are responsible to budget for and fund incentives for their
   respective departments. When contemplating an incentive for an employee, the
   Department Director shall forward a memorandum to HRD indicating funds are or
   will be available to fulfill the incentive service agreement.
5. Recommendations to HRD for Recruitment, Relocation, and Retention
   Incentives

   a. Hiring officials and designated recruiters may recommend in writing to the HRD
      Director, the approval of payment of an incentive for an eligible position or
      applicant.

      (1) For recruitment and relocation incentives, the recommendation must address
          the following factors applicable to the recommended case:

             (a) The availability and quality of candidates possessing the competencies
                 required for the position;

             (b) The success of recent efforts to recruit candidates for similar positions;

             (c) The salaries typically paid outside the Federal Government for similar
                 positions;

             (d) Recent turnover in similar positions;

             (e) Employment trends and labor market factors;

             (f) Special or unique competencies required for the position;

             (g) Efforts to use non-pay authorities alone or combination with other
                 authorities;

             (h) The desirability of the duties, work or organizational environment, or
                 geographic location of the position; and

             (i) Any other supporting factors.

      (2) For retention incentives, the recommendation must address the following
          factors applicable to the recommended case:

             (a) Employment trends and labor market factors;

             (b) Success of recent efforts to recruit candidates with similar
                 competencies;

             (c) Special or unique competencies required for the position;

             (d) Efforts to use non-pay authorities to help retain the employee instead
                 of, or in addition to a retention;
                (e) The desirability of the duties, work or organizational environment, or
                    geographic location of the position;

                (f) The extent to which the employee’s departure would affect the
                    agency’s ability to carry out an activity, perform a function, or
                    complete a project the agency deems essential to the mission;

                (g) The salaries typically paid outside the Federal Government; and

                (h) Any other supporting factors.

   b. The hiring official or designated recruiter’s written justification must also include:
      1) a description as to how the target group of positions or individual meet the
      factors that warrant an incentive, and 2) the proposed incentive percentage and a
      justification for that amount.

   c. The criteria listed at Section 5a(1) shall be used when establishing a target group
      or groups of similar positions for recruitment actions by designated recruiters or
      other officials to make offers in a timely manner.


6. Basis and Criteria for Determining to Pay Recruitment, Relocation, and
   Retention Incentives

   a. Prior to offering an incentive, the approving official must make a determination
      that in the absence of such a bonus, difficulty would be encountered in filling the
      position, which should include consideration of the factors discussed in Section
      5(a)(1)-(2) above. The recommending, reviewing, and approving officials shall
      also consider: a) the criticality of the position to meeting the PBGC mission; b)
      cost effectiveness of granting an incentive to a specific applicant relative to the
      cost of further recruitment; and c) availability of funds.

   b.    Specific criteria for incentives are:

        (1) Recruitment incentives must meet the general criteria in Section 6a above and
            must have a written basis establishing: 1) that the position is likely to be
            difficult to fill; 2) for authorizing an incentive and; 3) for the amount and
            timing of the approved incentive payment, and length of the service period.

        (2) Relocation incentives must meet the general criteria in Section 6a above and
            must have a written basis: 1) that the position is likely to be difficult to fill; 2)
            for authorizing an incentive; 3) for the amount and timing of the approved
            incentive payment, and length of the service period; and 4) that the worksite
            of the employee’s new position is not in the same geographic area as the
            worksite of the position held immediately before the move and the employee
            established a residence in the new geographic area.
      (3) Retention incentives must meet the general criteria in Section 6a above and
          must have a written basis: 1) that the unusually high or unique qualifications
          of the employee's position is likely to be difficult to fill; 2) for authorizing an
          incentive; and 3) for the amount and timing of the approved incentive
          payment, and length of the service period.

7. Service Agreements

   a. General.

      (1) Prior to receiving an incentive payment, an employee must enter a written
          service agreement to complete a specified period of employment with PBGC.
          All incentive agreements must contain, but are not limited to: 1) the period of
          employment expressed in months; 2) the commencement and termination
          dates; 3) the total amount of the incentive; 4) the method of paying the
          incentive; 5) the timing and amounts of each incentive payment; 6) conditions
          under which PBGC must terminate the service agreement; 7) conditions under
          which PBGC may terminate the service agreement; 8) conditions under which
          PBGC may temporarily suspend the service agreement; and 9) the obligations
          of the employee and PBGC, as applicable, if the agreement is terminated.

      (2) No service agreement shall be entered into by PBGC without the permission
          of the approving official for an incentive under this policy.

      (3) PBGC may not commence a retention incentive service agreement during a
          period of employment established under a recruitment or relocation incentive.

      (4) The minimum service period for any incentive shall be one year, regardless of
          the total approved percentage. Only the Executive Director may waive this
          minimum service period.

      (5) The maximum service period for any incentive shall be 4 years.

   b. Service Period Determinations. The criteria for determining the service period for
      a service agreement shall be based on the individual's job responsibilities,
      expertise, the length and expected outcome of a critical project or assignment for
      the individual, the amount of the incentive and the additional factors identified in
      Section 5(a) above.

   c. Termination and Reduction

      (1) The Executive Director delegates authority to the HRD Director to unilaterally
          terminate service agreements in all incentive categories and reduce retention
          incentive authorization for reasons specified in 5 C.F.R. § 575, this policy,
          and the specific service agreement.
     (2) Prior to the action being taken, HRD shall provide the employee with written
         notice of the reduction or termination action.

     (3) Specific termination criteria at 5 C.F.R. § 575 shall be followed, as applicable
         to the category of incentive in question.

     (4) Termination of any incentive under this policy is not grievable or appealable.

8. Payment

  a. Payment amounts: The total amount of any incentive payments, except as
     provided for by wavier, may not exceed 25 percent of the annual rate of basic pay
     of the employee at the beginning of the service period multiplied by the number
     of years in the service period if the incentive is for an individual employee, unless
     waived by OPM in accordance with 5 C.F.R. § 575.109, 209, or 309, as
     applicable. Normally an incentive payment would be less than the maximum. If
     the incentive is for retention and established for a group or category of employees,
     the incentive rate may not exceed 10 percent.

  b. Payment methods:

     (1) Recruitment or relocation incentives may be paid: 1) as an initial lump-sum
         payment at the commencement of the service period; 2) before the start of the
         service as long as a written service agreement is on file in HRD; 3) in
         installments throughout the period of service required by the service
         agreement; 4) as a final lump-sum payment upon the completion of the full
         service period; or 5) in a combination of these methods. The payment method
         will be determined by HRD using calculation guidelines at 5 C.F.R. § 575.109
         and 5 C.F.R. § 575.209, as applicable.

     (2) Retention incentives may be paid in: 1) installments after the completion of
         specified periods of service, or 2) a single lump-sum payment after
         completion of the full service period. A retention incentive payment shall not
         be paid as an initial lump-sum payment at the start of a service period or in
         advance of fulfilling the service period. The payment method will be
         determined by HRD using calculation guidelines at 5 C.F.R. § 575.309.

  c. Exceptions:

     (1) For all incentives: 1) no payment shall be counted as a part of an employee’s
         basic pay for any purpose; 2) payments are subject to the aggregate limitation
         on pay under 5 C.F.R. § 530; and 3) no payment may be made until the HRD
         has a written service agreement with the signature of the employee, the hiring
         official, and the approving official.
      (2) For relocation incentives, no payment may be made until: 1) the employee has
          provided proof of residence in the new geographic area to the HRD; and 2) the
          HRD has verified the establishment of the employee’s residence.

      (3) For retention incentives:

          (a) PBGC may not offer or authorize a retention incentive for an individual
              prior to employment with the agency.

          (b) PBGC may not commence a retention incentive service agreement or
              begin paying a retention incentive during a period of employment
              established under a recruitment or relocation incentive.

          (c) PBGC may pay a relocation incentive without affecting the payment of a
              retention incentive.

          (d) Where no service agreement is required under conditions at 5 C.F.R. §
              575.310(f), PBGC must review each determination annually to determine
              whether payment is still warranted, should be reduced, or terminated.

9. Repayment of Recruitment and Relocation Incentives

   An employee may be required to repay a portion of a recruitment or relocation
   incentive under specific conditions identifed at 5 C.F.R. § 575, subpart A or B. The
   conditions that may warrant repayment shall be specified in the applicable incentive
   service agreement.

10. Records and Reports

   The HRD will maintain records sufficient to recreate the basis for the determination
   to pay an incentive and provide reports to OPM as may be required. The HRD will
   also monitor the submission, approval, and disapproval for incentives. This
   information will be analyzed from a Corporate-wide recruitment and retention
   perspective to determine trends, problem areas, and future needs.
    APPENDIX E




        26 
 
                                                                            ATTACHMENT 1.

           STUDENT LOAN REPAYMENT DETERMINATION WORKSHEET
                              (Recruitment)

A. Background Information (Complete the information for each item)

1. Selectee’s name: _____________________________________________________

2. Organization: _________________________________________________________

3. Vacancy Announcement # ______________________________________________

4. Position title, series, and grade:___________________________________________

5. Number of well-qualified candidates on the selection certificate (s): _____________

6. Briefly describe (in an attachment to the worksheet) why this position has been difficult to
fill and the high or unique qualifications this selectee possesses.

7. Value of selectee’s current or former (within 4-months) compensation (include salary,
commissions, differentials, other incentives) that is being used to determine the value of this
offer (attach supporting documentation): $__________________

8. Has the selectee been offered a recruitment incentive? ______yes ______no; if yes,
percentage ______ and value: $____________

9. Has the selectee been offered a relocation incentive? ______yes ______no; if yes,
percentage ______ and value: $____________

10. Has the selectee been offered an advanced step? _____yes _____no; if yes, step # ______
and value: $____________

B. Proposed Amount and Supporting Factors (Complete the information for each item)

1. Proposed student loan repayment amount: $__________

2. Criteria/factors (used to determine amount of loan repayment request):

Factor                                                               Determination

a. Recruitment/retention success (Good, Limited, or Poor)            ______________

b. Turnover (Few/Seldom; Some/Moderate; Significant/High)            ______________

c. Labor market (Good, Limited, or Poor)                             ______________
d. Value of Qualifications (Good, Limited, or Poor)                  ______________

____________________________________                         _______________
Requesting Official                                                Date
                                                                                             10
(STUDENT LOAN REPAYMENT DETERMINATION WORKSHEET (Recruitment)
Continued)

C. Certifications. Each section should be completed by the applicable official, signed, dated,
and include the official’s title.

1. Review of Eligibility (HRD)

_____ The employee is eligible for the proposed incentive.
_____ The employee is not eligible for the proposed incentive (memorandum of review is
attached).


____________________________________                     ____________
(Signature)                                                       Date
Human Resources Official


2. Funding Review (Department BLO)


_____ Sufficient funds are/are not available. (circle one)


____________________________________                 ______________
(Signature)                                                Date
Budget Liaison Officer



3. First-level Consideration Approval/Disapproval

_____ The proposed incentive is approved.
_____ The proposed incentive is modified as: ________________________________________
_____ The proposed incentive is disapproved (memorandum of review is attached).




____________________________________                 _______________
(Signature)                                                Date
(Title)




                                                                                                 11
(STUDENT LOAN REPAYMENT DETERMINATION WORKSHEET (Recruitment)
Continued)

4. Second-level Consideration Approval/Disapproval (Not used if less than $20,000)

_____ The proposed incentive is approved.
_____ The proposed incentive is modified as: ________________________________________
_____ The proposed incentive is disapproved (memorandum of review is attached).




____________________________________             _______________
(Signature)                                            Date
(Title)


5. Final Approval/Disapproval

_____ The proposed incentive is approved.
_____ The proposed incentive is modified as: ________________________________________
_____ The proposed incentive is disapproved.




____________________________________             _______________
(Signature)                                            Date
(Title)


File: Original: Employee’s OPF
Copy: Individual
        Department
        HRD Services




                                                                                     12
                                                                              ATTACHMENT 2.

          STUDENT LOAN REPAYMENT DETERMINATION WORKSHEET
                             (Retention)

A. Background Information (Complete the information for each item)

1. Employee’s name: __________________________________

2. Organization: _________________________________________________________

3. Position title, series, and grade:___________________________________________

4. Briefly describe (in an attachment to the worksheet) the unusually high or unique
qualifications of the employee occupying the position or the special need of the organization that
makes it essential to retain the employee and the likelihood of the employee leaving the Federal
service in the absence of the loan repayment benefit.

B. Proposed Amount and Supporting Factors (Complete the information for each item)

1. Proposed student loan repayment amount: $__________

2. Criteria/factors (used to determine amount of loan repayment request):

Factor                                                              Determination

a. Recruitment/retention success (Good, Limited, or Poor)           ________________

b. Losses (Few/Seldom; Some/Moderate; Significant/High)             ________________

c. Employee’s value to the mission (Limited; Moderate; High)        ________________

d. Documented salary in a competing job offer                       $_______________




____________________________________                        _______________
Requesting Official                                               Date




____________________________________                        _______________
Department Director                                               Date




                                                                                                13
(STUDENT LOAN REPAYMENT DETERMINATION WORKSHEET (Retention)
Continued)

C. Certifications. Each section should be completed by the applicable official, signed, dated,
and include the official’s title.

1. Review of Eligibility (HRD)

_____ The employee is eligible for the proposed incentive.
_____ The employee is not eligible for the proposed incentive (memorandum of review is
attached).


____________________________________                     ____________
(Signature)                                                       Date
Human Resources Official

2. Funding Review (Department BLO)


_____ Sufficient funds are/are not available. (circle one)




____________________________________                 ______________
(Signature)                                                Date
Budget Liaison Officer




3. First-level Consideration Approval/Disapproval

_____ The proposed incentive is approved.
_____ The proposed incentive is modified as: ________________________________________
_____ The proposed incentive is disapproved (memorandum of review is attached).




____________________________________                 _______________
(Signature)                                                Date
(Title)


                                                                                                 14
(STUDENT LOAN REPAYMENT DETERMINATION WORKSHEET (Retention)
Continued)

4. Second-level Consideration Approval/Disapproval (Not used if less than $20,000)

_____ The proposed incentive is approved.
_____ The proposed incentive is modified as: ________________________________________
_____ The proposed incentive is disapproved (memorandum of review is attached).




____________________________________             _______________
(Signature)                                            Date
(Title)




5. Final Approval/Disapproval

_____ The proposed incentive is approved.
_____ The proposed incentive is modified as: ________________________________________
_____ The proposed incentive is disapproved.




____________________________________             _______________
(Signature)                                            Date
(Title)


File: Original: Employee’s OPF
Copy: Individual
        Department
        HRD Services




                                                                                     15
    APPENDIX F




        27 
 
Table 1, Retention Factor Ranking/Repayment Amount Determination Guide


Ranking Total              12-16       17 -24         25 -32
Repayment Range            0-19        21 - 40        41 - 60
(Repayment range m thousands)




Candidate Name:                                          (Retention)
                  -------------------------------
    APPENDIX G




        28 
 
PBGC                    Pension Benefit Guaranty Corporation
                         STUDENT LOAN REPAYMENT
                    REQUEST FOR AND APPROVAL OF BENEFITS

   Name (Print or Type)                                               Department



   Title                                                              Series/Grade/Step



   Type of appointment                          Permanent         Term             Excepted         Temporary
                                                   D                D                  D               D
   Student Loan Repayment Benefit Amount Requested                    Current Balance of Outstanding Loan

   $                                                                  s
                                                                      NOTE: Official documentation from loan holder
                                                                      documenting loan balance and type of loan mustbe
                                                                      attached to this requestform.
   Recommending Official*                           Title                                        Date



   Approving Official   (Director, CMO or ED)       Title                                             Date



   Certification of Funds                           Title                                             Date



   Effective Date                                                 Benefit Number of Years

                                                                  1            2        3       4      5     6
                                                                  D            D        D       D     D      D
                                     1::1
                                                                  II;'•.               /u§~b~IYX                ......



   Most recent performance appraisal rating:                5     4        3       2        1
                                                            D D D D D                                 Date Verified



   Any pending disciplinary or adverse actions:             Yes            No
                                                            D              D                          Date Verified



   Loan information verified:                               Yes            No
                                                            D              D                          Date Verified

   *Must be signed and a written nommation from the recommending official must be attached with
       each student loan repayment benefit application.
    APPENDIX H




        29 
 
    APPENDIX I




        30 
 
       11'1(\
PBGe
Protecting America's Pensions
                                 Pension Benefit Guaranty Corporation
                                 1200 K Street, N.W., Washington, D.C. 20005-4026


                                          MEMORANDUM OF UNDERSTANDING


         To: 	                  Judith Starr
                                General Counsel
                                Office of General Counsel (OGC)

                                Israel Goldowitz 

                                Chief Counsel 

                                Office of Chief Counsel (OCC) 


         From: 	                Arrie Etheridge 

                                Director 

                                Human Resources Department (HRD) 


         Subject: 	             Superior Qualifications Process for Law Clerk Hiring

         Effective February 9, 2012 all Law Clerk hiring will be as follows:

         To maintain PBGC's competitiveness, all Law Clerks will be hired at the GS-Il grade level and
         commensurate step based on individual education/qualifications ifthey meet two or more of the
         following criteria:

                    1. 	 Top one-third of graduating law school class;

                    2. 	 Outstanding undergraduate record (e.g., graduation with honors, election to academic
                         honor society);

                    3. 	 Graduate degree in employee benefits or other relevant specialty;

                    4. 	 Judicial clerkship;

                    5. 	 Law review membership;

                    6. 	 Participation in clinical programs, internships/externships, advanced moot court, etc;

                    7. 	 Experience in employee benefits, corporate bankruptcy, or other relevant specialty;




                                                                                       """   -.-------~--"----".----.   --­
       8. Significant legal work while attending law school.

OGC/OCC will be responsible for:

   • 	 Coordinating with BOPD to ensure FTE'slbudget are available;

   • 	 Reviewing minimum qualifications for each candidate (i.e., graduation from law school
       and proof of receipt of JD degree);

   • 	 Identifying source(s) from which to recruit. Openings may be posted with law schools
       around the country.

   • 	 Determining which schools should receive postings for positions and are encouraged to
       use consortiums to expand the pool of possible candidates while recognizing that
       diversity is important and must be considered;

   • 	 Evaluating the candidates fairly and equitably consistent with Merit Systems Principles;

   • 	 Documenting all hiring and related decisions;

   • 	 Providing written justification to HRD to include identifying two or more of the criteria
       listed above for approval to support superior qualifications (above the first step of the
       grade);

   • 	 Justifying a higher salary to remain competitive with other DC area employers;

   • 	 Providing HRD with SF-52, applicable transcripts; resume(s); written superior
       qualifications justification; the announcement, if applicable; and any other related
       documents;

HRD will be responsible for:

   • 	 Reviewing proper documentation and providing approval for superior qualifications;

   • 	 Making final job offer to candidate(s);

   • 	 Negotiating an effective date for candidate(s) to start at the beginning of a new pay
       period;

   • 	 Processing the SF-52 and applicable employee documentation;

   • 	 Maintaining employee records to include a copy ofthe resume, transcript(s), SF-52, and
       approved copy of written justification for superior qualifications. Hiring records will be
       maintained by HRD pursuant to applicable records retention requirements.
Concurrence:

C\/~                      ~
                          »   ...._ - - - ­

Ju'tfth Starr
General Counsel 

Office of General Counsel 



    ~
Israel Goldowitz 

                                              

Chief Counsel 

          Chief Co




Director
Human Resources Department
    APPENDIX J




        31 
 
